<html>
<title> - PUBLIC CHARTER SCHOOLS IN THE DISTRICT OF COLUMBIA</title>
<body><pre>[Senate Hearing 108-774]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-774

           PUBLIC CHARTER SCHOOLS IN THE DISTRICT OF COLUMBIA

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                      MAY 4, 2004--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
97-827 PDF                 WASHINGTON : 2005
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001




                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terence E. Sauvain, Minority Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                      MIKE DeWINE, Ohio, Chairman
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
TED STEVENS, Alaska (ex officio)     ROBERT C. BYRD, West Virginia (ex 
                                         officio)
                           Professional Staff

                             Mary Dietrich
                        Kate Eltrich (Minority)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Mike DeWine.........................     1
Statement of Senator Mary L. Landrieu............................     2
    Prepared Statement...........................................     4
Statement of Senator Richard J. Durbin...........................     7
Statement of Thomas Loughlin, Chair, District of Columbia Public 
  Charter School Board...........................................     8
    Prepared Statement...........................................    10
Historical Context...............................................    10
Obtaining Facilities in a Competitive Real Estate Market.........    11
NCLB Concerns....................................................    13
Board's New Initiatives..........................................    13
Statement of Josephine Baker, Executive Director, District of 
  Columbia Public Charter School Board...........................    14
Statement of Peggy Cooper Cafritz, President, District of 
  Columbia Board of Education....................................    15
    Prepared Statement...........................................    16
Statement of Ariana Quinones-Miranda, Executive Director, 
  District of Columbia Public Charter School Association.........    29
    Prepared Statement...........................................    30
Statement of Joe Nathan, Director, Center for School Change, 
  Humphrey Institute, University of Minnesota....................    33
    Prepared Statement...........................................    35
Why Did Legislators Adopt Charter Legislation?...................    35
What Is the Charter Idea?........................................    36
What Is Known About the Impact of Charter Schools on Students?...    36
What Is the Impact of the Charter Movement on the Larger District 
  Sys- 
  tem?...........................................................    38
How Can Congress Maximize the Positive Impact of This Movement?..    39
Statement of David Domenici, Co-founder, Maya Angelou Public 
  Charter School, Washington, DC.................................    48
    Prepared Statement...........................................    51
Statement of Eric S. Adler, Founder, SEED Foundation, Washington, 
  DC.............................................................    53
    Prepared Statement...........................................    55
The SEED School of Washington, DC Offers a Comprehensive, 
  Visionary Solution to Previously Intractable Educational and 
  Social Problems................................................    56
Issue No. 1.--Development of a Solid Operating Business..........    56
Issue No. 2.--Facilities.........................................    57
Issue No. 3.--School Size and Culture............................    57
Issue No. 4.--Meeting the Non-educational Needs of Students and 
  Families in Order to Make it Possible for Students to Focus on 
  School.........................................................    58
Issue No. 5.--Entrepreneurialism.................................    58
Issue No. 6.--Student Assessment and Promotion...................    58
Statement of Joshua Kern, Co-founder and President, Thurgood 
  Marshall Academy, Washington, DC...............................    59
    Prepared Statement...........................................    61

 
           PUBLIC CHARTER SCHOOLS IN THE DISTRICT OF COLUMBIA

                              ----------                              


                          TUESDAY, MAY 4, 2004

                               U.S. Senate,
          Subcommittee on the District of Columbia,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senators DeWine, Landrieu, and Durbin.


               opening statement of senator mike de wine


    Senator DeWine. Good morning. The subcommittee will come to 
order.
    Today, we will hear some good news about the success of 
public charter schools here in the District of Columbia. There 
are 43 charter schools, serving about 12,000 students, in our 
Nation's Capital. Starting in 1995, it has been one of the 
fastest growing charter school movements in the country. In 
fact, about 15 percent of all public school children in the 
District now attend public charter schools.
    To provide a bit of background, charter schools are non-
sectarian public schools that are free from many of the 
regulations that apply to traditional public schools. The 
charter establishing each school is a performance contract 
detailing the school's mission, programs, goals, student 
served, methods of assessment and ways to measure success.
    The length of time for which charters are granted varies, 
but most are for 3 to 5 years. At the end of the term, the 
entity granting the charter may renew the school's contract. 
Charter schools are accountable to their sponsor, usually a 
State or a local school board, to produce positive academic 
results and adhere to the charter contract. That is the basic 
concept.
    Forty-one States and the District of Columbia have passed 
public charter school laws, often in response to the demands of 
parents. Parents can send their children to public charter 
schools that focus on fine or performing arts, foreign language 
immersion, math, science and technology, or college-prep 
liberal arts. There are also charter boarding schools, charter 
schools for students who have dropped out of traditional 
schools, and charter schools for children with disabilities.
    This subcommittee has been very supportive of the 
District's charter school movement. When Senator Landrieu 
chaired this subcommittee 2 years ago, she worked very hard to 
provide $17 million in Federal funds for a credit enhancement 
fund to allow charter schools to borrow money to construct and 
renovate facilities. This was in recognition that the number 
one challenge for charter schools is finding and renovating 
appropriate classroom space. This subcommittee continued to 
support charter schools by providing $13 million in last year's 
D.C. appropriations bill to expand the number of charter 
schools here in the city.
    Today, our first panel will discuss challenges facing 
charter schools as they expand in the District of Columbia. The 
witnesses on our second panel are all founders and directors of 
innovative charter schools in the District. They will share 
some exciting success stories about their schools, as well as 
the individual issues and challenges facing their respective 
schools.
    Witnesses today will be limited to 5 minutes for their oral 
remarks in order to leave time for questions and answers. 
Copies of all written statements will be placed in the record 
in their entirety.
    Let me again recognize Senator Landrieu for her great work 
on this committee, but especially thank her and applaud her for 
all the hard work she has done for charter schools nationally, 
and particularly here in the District of Columbia. She has been 
a champion for charter schools since their inception and she 
continues to lead the charge for increased funding and support 
for these innovative schools.
    Mary, thank you for your very hard work and let me now turn 
to you for your comments.


                 statement of senator mary l. landrieu


    Senator Landrieu. Thank you, Mr. Chairman, and I appreciate 
those comments and, of course, acknowledge the work that we 
have done together along with many other members of both the 
House and the Senate to improve public school choices for 
residents in the District, to help this school district to 
serve as a model in many ways for the Nation, and our continued 
work together to improve public education in our home States as 
well as across the country.
    Today, I am pleased, Mr. Chairman, that you have agreed to 
hold this hearing today on charter schools, which are 
independent public schools designed and operated by educators, 
parents, community leaders, educational entrepreneurs and 
others. They are sponsored by designated local or State 
organizations who monitor their quality and effectiveness, but 
allow them to operate with greater flexibility than is 
available within the traditional system.
    The basic premise upon which most, but not all charter 
schools are founded is increased autonomy in return for 
accountability. As many of you may know, this week is National 
Charter School Week, so it is appropriate that this hearing be 
held in our Nation's Capital. During this time, we take time to 
reflect and celebrate one of the fastest-growing, innovative 
forces in education policy today, the charter school.
    In 1991, Minnesota passed the first charter school law, 
with California following suit in 1992. In the 12 years since, 
42 States and the District of Columbia have enacted laws for 
the creation of charter schools. This morning as we gathered 
for this hearing, over 600,000 students are on their way to 
2,996 charter schools throughout the Nation.
    I am proud to say that cities such as Washington, DC, and, 
Mr. Chairman, your city of Dayton, Ohio, have enrolled upwards 
of 17 percent of all their school-age children in charter 
schools, showing their openness to innovation and improvement 
in the public school system.
    The demand for these schools remains high, with more than 
70 percent of charter schools having waiting lists that, if 
combined, could fill at least 900 more schools.
    There is no question that the charter school movement has 
served as a catalyst for change within our public school 
system. The question is why? What are charter schools able to 
offer to students and parents that traditional public schools 
are not? Are charter schools everything they promised to be? 
What impact will the growth of charter schools have on the 
public education system as we know it today and what are the 
lessons learned to date?
    What are the real and perceived barriers preventing future 
growth of the charter school movement, and can charter schools 
be used not only to increase student performance, parental 
satisfaction and public accountability, but can they also be 
used as a catalyst for neighborhood revitalization, attracting 
new residents to cities throughout our country? These are but a 
few questions that I hope we will be able to begin to answer 
today.
    While the evidence is not yet conclusive as to whether the 
charter school movement as a whole is increasing student 
performance, early reports are very promising. Although charter 
schools are typically but not always educating students with 
the greatest need, objective surveys and reports show that the 
academic progress among charter school students are outpacing 
those of cohorts in traditional public schools.
    Those successes include gains in reading and math 
performance, test scores that are sometimes higher, and State 
and neighborhood schools with parental involvement, higher 
attendance and fewer disciplinary problems. Again, this is not 
across the board, but there are promising results that show 
some extremely promising outcomes in some of our charter 
schools.
    In addition, charter schools have demonstrated that it is 
possible to combine fiscal responsibility and corporate 
management techniques while providing a high-quality education. 
Many charter schools are using strategies such as performance-
based pay, professional development and advancement 
opportunities to attract and retain a high-quality teaching 
force, which is a challenge across the board.
    Our reason for holding this hearing this morning is to 
highlight the successes of charter schools and to examine the 
challenges they face, to be clear about some of the failures 
and why, and to understand, if there are failures, what is 
causing them and what are the consequences of failure.
    There is no more appropriate place to hold this hearing 
today than in our Nation's Capital. I am proud to report that 
the District of Columbia, along with other innovative 
techniques to improve schools and school choice for parents, is 
a leader in the national school movement for charter schools.
    I will submit the rest of this, Mr. Chairman, for the 
record to save some time, but I would like to acknowledge the 
work that this committee and Congress has done with local 
leaders in setting up a credit enhancement program; a direct 
loan fund establishing stable per-pupil facility allotments, 
which is critical to the start-up of charter schools; and a new 
initiative underway in the District called CityBuild Charters, 
which will add to the strength of the charter school movement, 
and perhaps will begin to identify neighborhoods that are prime 
or near-term for neighborhood revitalization to provide a good 
choice of education for potential residents in the District of 
Columbia.


                           prepared statement


    I am thankful for all those who came today to participate 
in our hearing and am looking forward to hearing again what are 
the lessons learned, how do we move forward, what can we do to 
improve options and to improve the entire public school system 
in the District of Columbia.
    Thank you, Mr. Chairman.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    As many of you know, this week is National Charter School Week. 
During this time, we, as a Nation, take the time to reflect on and 
celebrate one of the fastest growing innovative forces in education 
policy, the charter school. In 1991, Minnesota passed the first charter 
school law, with California following suit in 1992. In the 12 years 
since, 42 States and the District of Columbia have enacted laws 
allowing for the creation of charter schools. This morning, over 
600,000 students are on their way to 2,996 charter schools. Cities such 
as Washington, DC and Dayton, Ohio are enrolling upwards of 17 percent 
of all of their school age children in charter schools. And the demand 
for these schools remains high, with more than 75 percent of charter 
schools having waiting lists that if combined could fill at least 900 
more schools.
    There is no question that the charter school movement has served as 
a catalyst for change from within our public school system, the 
question is why? What are charter schools able to offer to students and 
parents that the traditional public schools are not? Are charter 
schools everything they promise to be? What impact will the growth of 
charter schools have on the public education system as we know it 
today? What are the lessons learned to date? What are the real and 
perceived barriers preventing future growth? Can charter schools be 
used not only increase student performance, parental satisfaction, and 
public accountability, but can they also be used as a catalyst for 
neighborhood revitalization? These are but a few of the questions that 
I hope we will be able to begin to answer today.
    Before we begin, we must first answer the most basic of questions, 
what is a charter school? The simple answer is this. Charter schools 
are independent public schools designed and operated by educators, 
parents, community leaders, educational entrepreneurs, and others. They 
are sponsored by designated local or State educational organizations, 
who monitor their quality and effectiveness but allow them to operate 
with greater flexibility than is available within the traditional 
system. The basic premise upon which most charter schools are founded 
is increased autonomy in return for accountability.
    Studies show that the primary reason for the rapid growth in the 
number of charter schools was the unmet desire of education reformers 
to find a way to ``step out of the box'' that had become our public 
school system. In fact, nearly two-thirds of newly created charter 
schools reported that their reason for becoming a charter school was to 
realize an alternative vision of schooling, and an additional one-
quarter of newly created schools were founded because of the need to 
serve a special target population of students. Perhaps even more 
intriguing, more than one-third of pre-existing public schools report 
that they converted to charter status in order to gain autonomy from 
district and State regulations. Increased autonomy and structural 
flexibility results in charter schools being able to embrace innovation 
and customize educational options to the needs of the students they 
serve.
    What makes this movement work, however, is that this freedom is not 
without a price. In exchange for greater flexibility, charter schools 
are held accountable for both academic results and fiscal practices by 
several groups: the sponsor that grants them, the parents who choose 
them, and the public that funds them. Under the terms of their charter, 
charter schools are expected to meet annual performance goals usually 
tied to the improvement of student achievement. Unlike a traditional 
public school, if a charter school is not performing, they face 
immediate and grave consequences, including closure. To date, more than 
200 failed or failing public charter schools have been closed on 
fiscal, educational and organizational grounds.
    While the evidence is not yet conclusive as to whether the charter 
school movement as a whole is increasing student performance, early 
reports are very promising. Although charter schools are typically, but 
not always, educating students with the greatest need objective surveys 
and reports show that the academic progress among charter schools 
students outpacing that of their cohorts in traditional public schools. 
Those successes included gains in reading and math performances; test 
scores higher than district, State and neighborhood schools; increased 
parental involvement; and higher attendance and fewer disciplinary 
problems.
    But the benefits of charter schools go beyond just student 
performance. An unexpected beneficiary of the charter school movement 
has been low income and minority youth, many of whom would otherwise be 
trapped in a failing school. Almost 40 percent of students attending 
charter schools in the United States are eligible for free and reduced 
price lunch. According to the National Center for Education Statistics, 
27.3 percent of the students in charter schools were Black (compared to 
16.9 percent in traditional Public schools); 20.8 percent were of 
Hispanic origin (compared to 14.9 percent); and 2.3 percent were Native 
Americans (compared to 1.2 percent).
    Charter schools also provide greater diversity amongst their 
teachers. This racial diversity has the advantage of the teacher being 
able to understand better the background and the culture of minority 
children and therefore helping them to achieve better academic results. 
The NCES (1999-2000) reports that 15.5 percent of teachers in charter 
schools are Black (compared to 8.9 percent in traditional public 
schools); 8.1 percent are Hispanics (compared to 5.2 percent).
    In addition, charter schools have demonstrated that it is possible 
to combine fiscal responsibility and corporate management techniques 
while providing a high quality education. Many charter schools use 
strategies such as performance based pay, professional development and 
advancement opportunities to attract and retain a high quality teaching 
force. On average, the class and school sizes are smaller than the 
traditional public schools. And yet, the average per-pupil cost in 
charter schools is $4,507 versus the average traditional schools cost 
of more than $7,000 per pupil (NCES). Are charter schools really doing 
more with less?
    Finally, perhaps one of the greatest assets of the charter school 
movement is customization of educational opportunities to the needs of 
our young people. Many charter schools provide students with an 
opportunity to become bilingual, develop art and music skills, master 
technology or focus on science and math. This type of customization is 
not only important in a global economy that will reward such skills but 
critical in serving the needs of a highly diverse student population. 
What the charter school movement recognizes, and the traditional public 
schools have also begun to acknowledge, is that every child is 
different and so too, is their way of learning.
    In addition, charter schools have demonstrated that it is possible 
to combine fiscal responsibility and corporate management techniques 
with providing a high quality education. Many charter schools use 
strategies such as performance based pay, professional development and 
advancement opportunities to attract and retain a high quality teaching 
force. On average, the class and school sizes are smaller than the 
traditional public schools. And yet, the average per-pupil cost in 
charter schools is $4,507 versus the average traditional schools cost 
of more than $7,000 per pupil (NCES). Are charter schools really doing 
more with less?
    Our reason for holding this hearing this morning is to highlight 
the success of charter schools and to examine the challenges they face. 
There is no more appropriate place to hold this hearing than here, in 
our Nation's capital. I am proud to report that the District of 
Columbia has become a leader in the national movement for innovation in 
education by vigorously implementing charter school law. As a result, 
they have the highest per capita enrollment in charter schools in the 
United States. With over 14,000 students attending 39 schools, the 
District of Columbia has demonstrated the power charter schools can 
have in improving parental satisfaction and student achievement.
    Since the beginning of the charter school movement in the District 
of Columbia, the Federal Government has been a strong and aggressive 
partner, working to establish the support network, through legislation 
and funding, to promote charter schools. In fact, the legislation to 
create charter schools, The School Reform Act of 1995, which 
established the framework for the current chartering boards, was 
initiated through Congressional action. In addition, this D.C. 
subcommittee has created several resources to support charter schools, 
particularly focusing on the challenge of acquiring adequate facilities 
and comprehensive technical support for start ups. These include the 
Credit Enhancement Program, Direct Loan Fund, and a relatively stable 
per-pupil facilities allotment. And finally, the U.S. Department of 
Education operates the Federal Credit Enhancement Program. Recently, ED 
released $37 million in grants, of which the District was competitively 
awarded $5 million. I intend to submit the full legislative history of 
charter schools in the District of Columbia for the record.
    The main focus of this hearing is not the past, but the future. 
What are the real successes of the D.C. charter schools? What is the 
process for identifying schools that are failing and closing them down? 
What is the process of identifying and rewarding charter schools that 
have been successful? What are the real and perceived barriers to 
future growth of charter schools here in the district? Can charter 
schools be used, as is contemplated by City Build Charters, be used to 
further neighborhood revitalization? Again, I hope this hearing will 
allow us to begin to answer some of these important questions.
    Today we are thankful to have representatives from the two 
authorities in the District which charter new charter schools--the D.C. 
School Board represented by their President Peggy Cooper Cafritz; and 
the Public Charter School Board represented by the Chairman Tom 
Loughlin. In addition, the first panel has nationally recognized expert 
Dr. Joe Nathan, here from Minneapolis and the Center for School Change 
to discuss the best practices in national trends. Also, we are pleased 
to welcome Ariana Quinones in one of her first acts as the Director of 
the newly formed Public Charter School Association.
    The second panel is made up of three of the best and brightest 
founders of charter schools in the District.
    Maya Angelou Public Charter School and the See Forever Foundation 
founded 5 years ago by David Domenici and James Forman, Jr. See Forever 
was designed as a holistic program for teens involved in the juvenile 
justice system. Court-involved teens told Mr. Domenici and Mr. Forman 
that they wanted to earn money, learn marketable skills, and gain 
responsibility. When they returned to school, they also wanted to 
attend small classes with teachers who cared about them, and they 
wanted help making hard decisions.
    Opened in 1997 as a comprehensive program for a small number of 
teens, as the Maya Angelou Public Charter School 1998, in 2000, See 
Forever moved into a newly-renovated campus in the historic Odd Fellows 
Building at the corner of 9th and T Street NW, which houses all of our 
programs.
    See Forever students take part in our activities year round, for up 
to 10 hours per day during the traditional school year, and for 6 to 8 
hours per day during the summer. They attend class at The Maya Angelou 
Public Charter School, work part-time at one of our two student-run 
businesses--Untouchable Taste Catering and the Student Technology 
Center, and participate in activities ranging from internships to 
summer programs to team-building exercises.
    The SEED Foundation was founded in 1997 by Eric Adler and Rajiv 
Vinnakota to establish urban boarding schools that prepare children, 
both academically and socially, for success in college and in the 
professional world beyond. The SEED Foundation opened its first school, 
The SEED Public Charter School of Washington, DC, in 1998, to provide 
urban children with an intensive college preparatory boarding 
education. The SEED School serves 305 students in grades 7 through 12 
whose challenging circumstances might otherwise prevent them from 
fulfilling their academic and social potential.
    For some children, only a 24-hour-a-day school program can provide 
the security and stability they need to succeed. With the belief that 
an integrated program can accomplish more than services pieced together 
from day and after-school programs, The SEED School set out to provide 
its students with consistent, holistic services. The result is a 
boarding school program that provides a comprehensive solution for the 
challenges facing many inner-city youth. The School provides students 
with comfortable accommodations, three nutritious meals a days, 
opportunities for physical exercise, two school psychologists, college 
and career counselors and an elaborate network of support consisting of 
parents, teachers, boarding instructors, counselors and boarding 
community coordinators.
    Thurgood Marshall Academy Public Charter High School (TMA) serves 
at-risk, low-income high school students in Southeast Washington, DC. 
President & Chief Executive Officer Joshua M. Kern initiated the effort 
that led to the creation of Thurgood Marshall Academy Public Charter 
High School (TMA) while serving as a teacher at Frank W. Ballou High 
School in Southeast Washington, DC, as a participant in the D.C. Street 
Law clinical program at Georgetown University Law Center.
    As the first law-related charter high school in the District of 
Columbia, Thurgood Marshall Academy's mission is to prepare students to 
succeed in college and to actively engage in our democratic society. 
TMA helps students develop their own voices by teaching them the skills 
lawyers have--the ability to solve complex problems, think critically, 
and advocate persuasively for themselves and their communities. These 
skills are important in and transferable to college and work settings. 
The school offers a rigorous college-preparatory curriculum integrated 
with youth development programs tailored to the individual needs of 
each student, with the aim of helping these students reach their full 
potential academically and, eventually, as members of the workforce.

    Senator DeWine. Senator Landrieu, thank you very much.
    Senator Durbin.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Thank you very much, Mr. Chairman, and 
thank you, Senator Landrieu, for your interest in this subject. 
I am going to monitor this hearing, though I won't be able to 
stay for the entire hearing.
    For reasons I cannot explain, the District of Columbia has 
become my second constituency, by choice, I suppose, since I 
came here 40 years ago as a student and have spent a major part 
of my life in the District of Columbia. I have always tried to 
defer to the judgment and authority of the people of the 
District of Columbia to decide their fate. Some of my 
colleagues don't feel that way; they think that they know best 
for the District of Columbia.
    This committee and the members have really tried to improve 
the quality of life in the District of Columbia, and certainly 
we start with education, as we find in virtually every city in 
our great Nation. I think the charter school movement is a good 
one. We have it in Illinois and many other States. It was 
controversial to start with, but I think there are times when 
we have to look for new ideas in education. But we have to hold 
them to the same levels of accountability as public schools. 
That is the only fair way to judge. In this situation, we have 
to determine whether charter schools are, in fact, moving the 
kids who attend in the right direction.
    There is a self-selection process in charter schools, which 
means that parents and students who are likely to go there 
first, and those that care less are likely to stay behind, 
perhaps in a public school that is not performing. So it may 
not be easy to compare the two.
    I am heartened by the fact that the teacher standards 
required in the District of Columbia for charter schools are 
the same as public schools. I think that makes sense. When we 
had this same issue before us when it came to the voucher 
system for other private schools, the Senate Appropriations 
Committee expressly voted not to hold teachers in the voucher 
private schools to the same standards of education and training 
as we do in the public and charter schools in the District of 
Columbia.
    That may be a noble experiment, but it is not one that we 
are ready to sign up for for the rest of America. In fact, we 
are going in the opposite direction. We are saying we want 
higher and higher standards for teachers in public schools 
across America and have created an exception here.
    I am anxious to hear the results, and I know we have some 
great witnesses before us. I will be popping in and out of here 
during the course of the hearing, and I thank you for calling 
this, Mr. Chairman.
    Senator DeWine. Very good. Thank you very much.
    Let me introduce our first panel, and I would ask them to 
come now as I am introducing them.
    Mr. Thomas Loughlin is the Chairman of the District of 
Columbia Public Charter School Board. Accompanying him is Ms. 
Josephine Baker, Executive Director of the Board. Ms. Peggy 
Cooper Cafritz is the Chairman of the District of Columbia 
Public School Board. Ms. Ariana Quinones is the Executive 
Director of the District of Columbia Public Charter School 
Association. Dr. Joseph Nathan is the Director of the Center 
for School Change at the Hubert H. Humphrey Institute.
    We thank you all very much for being with us, and we will 
start from my left to right and we will start with Mr. 
Loughlin.
STATEMENT OF THOMAS LOUGHLIN, CHAIR, DISTRICT OF 
            COLUMBIA PUBLIC CHARTER SCHOOL BOARD
    Mr. Loughlin. Thank you. Good morning. I would like to 
thank you, Chairman DeWine and Senators Landrieu and Durbin, 
for holding these hearings and for all the really excellent 
support that we have gotten in our charter school community 
from this committee.
    While I am here, I would also like to acknowledge and thank 
our elected representative, Delegate Eleanor Holmes Norton, who 
has taken on many occasions the opportunity to assist our 
charter schools and the charter school community, in general. 
The effort of what has taken place here on Capitol Hill has had 
just a tremendous positive impact on the growth of charter 
schools in the District and on the children in the District of 
Columbia.
    A little bit of historical context. Our board was formed in 
1997 and our first charter schools opened in the fall of 1998, 
with just slightly over 2,000 students. To fast-forward to 
today, we are at 22 charter schools. Our board has approved 22 
charters, on 25 campuses. We have 10,000 students in those 
schools, and this fall that population will increase to 12,000.
    Combined with the Board of Ed's charter schools, there are 
approximately 13,000 students now, and there will be 
approximately 17,000 charter school students in the fall. So 
that will represent roughly 23 percent of the public school 
population in the District.
    The schools that we have chartered--and it has been noted 
here from the dais--have had tremendous community impacts in 
the neighborhoods of the District of Columbia. We can see the 
transformative effects that the schools have from the 
standpoint of cleaning up, fixing up and being catalysts within 
neighborhoods and communities.
    At the same time, the schools are offering some excellent 
educational options to the children and to the families of the 
District of Columbia, some of which were noted by Chairman 
DeWine--the Nation's only urban boarding school, vocational 
programs, programs for drop-outs, programs geared toward 
English language learners.
    The performance of the charter schools is encouraging, as 
Senator Landrieu pointed out. I would say at the elementary 
schools and at the middle schools, we have seen some strong 
signs of academic progress. The high school levels have been 
more challenging; it has been a more difficult path. The 
students in many cases are coming in years behind grade level.
    On the other hand, we have had tremendous success with 
retaining those children in the high schools and seeing them 
all the way through to graduation, and then having really 
terrific college acceptance rates for these children. So that 
has been a great success story at the high school level.
    Our board is very focused on maintaining rigorous standards 
for new charter school applications. We believe in chartering 
high-quality programs. A couple of years ago, we had a handful 
of applications and we didn't charter any schools because we 
didn't think that they were up to the appropriate standards.
    In the most recent cycle, we received 11 applications and 
we chartered 6 of those. We have received, I believe, 90 
applications to date; we have chartered 29. So we are very 
focused on chartering schools that we believe will be 
successful, and then on the monitoring processes and working 
with those schools to see that they will be successful.
    While we are very pleased with the growth of the charter 
school programs and the quality of those programs, we believe 
there are still some significant issues that will need to be 
addressed to see greater growth in charter schools in the city. 
I would like to speak to the facilities issue and have Ms. 
Baker here speak to the No Child Left Behind standards.
    On the facilities front, the charter schools have really 
been struggling for a long time, and you have heard us all on 
this committee talk about this for quite a while. The committee 
has been very supportive. We have certainly received some 
funding there. I always want more, so I will characterize it as 
frittering around the edges.
    There are a lot of new schools opening up that need 
facilities. It is a very, very tight commercial real estate 
market here, the most competitive in the country, as I 
understand it. Our facilities allowance has grown nicely over 
the course of time. Our view is that the funding formula for 
facilities is flawed, and we think it is going to create some 
problems going forward. So I think this is a good time to step 
back and look at how the facilities are funded for the charter 
schools.
    Right now, it is tied to the DCPS capital budget on a per-
pupil basis. I have probably oversimplified it there a little 
bit, but generally speaking that is how it works. So as DCPS 
needs more money to renovate schools, transformation schools, 
et cetera, they float more bonds and then the per-pupil number 
goes up and the charter schools receive a rolling average of 
that for facilities. But over the course of time, those funding 
needs may subside.
    The funding formula isn't really tied to the school's 
economic realities and the commercial real estate market. We 
have one school that is paying more than double its facilities 
allowance for its space. So we think that, definitely, 
facilities funding needs some study and a more sustainable 
manner of funding. It would be appropriate.
    As I noted, the commercial real estate market being very 
competitive, the amount of facilities that are available has 
become an issue. It is very difficult for schools to secure 
facilities. We have a school that has been notified by its 
landlord that it will have to vacate its facilities at the end 
of June. They are searching now for another facility to open up 
for next fall, but there are not that many suitable facilities 
available for these schools.
    We have been anxious to see some more of the city's 
inventory, some more of DCPS' inventory freed up. We have had 
some progress in working with DCPS in that regard. And, of 
course, we would like to see that accelerate. We would 
certainly like to see some more facilities made available.
    The paradigm right now for charter schools is scrimp and 
save for a few years, build up equity of $1 or $2 million out 
of their operating budget, and then be in a position to float 
bonds. That is a very difficult way to secure sustainable 
facilities.
    The only other point before I ask Ms. Baker to pick up on 
No Child Left Behind is the charter school law in terms of 
other factors that can impact the growth and success of charter 
schools going forward.

                           PREPARED STATEMENT

    Senator DeWine. Mr. Loughlin, you are about 2 minutes over.
    Mr. Loughlin. I am sorry. I apologize. Well, I will cut out 
of that and----
    [The statement follows:]
                 Prepared Statement of Thomas Loughlin
    Good morning. I am Thomas Loughlin, Chair of the District of 
Columbia Public Charter School Board. I am joined by Ms. Josephine 
Baker, the Executive Director. On behalf of the Board and the schools 
operating under our oversight, we are pleased to provide this committee 
an update on charter schools' current status and the challenges they 
currently face. Let me first begin by offering our Board's sincere 
appreciation for the advocacy of our elected Congressional 
representative, Delegate Eleanor Holmes Norton, who has on many 
occasions illuminated charter schools' needs for support, particularly 
around adequate facilities. We are also indebted to the members of this 
subcommittee who have secured much needed additional funding for 
facilities, credit enhancement and other financing opportunities from 
the Federal Budget. Your efforts have made a tremendous difference to 
public charter schools, a few of which might not be open today if not 
for the lifeline provided to manage the escalating costs in the 
commercial real estate market.
                           historical context
    Since the Congress passed the law to create the D.C. Public Charter 
School Board in 1997, the D.C. charter school movement has experienced 
exciting growth. The first schools authorized by the PCSB opened in 
1998 with 2,027 students enrolled. Parents, students, educators and 
community leaders envisioned the possibilities of this innovative 
alternative to traditional public education and have become involved in 
growing numbers each year since. Currently, our Board oversees 22 
charter schools, operating on 25 campuses in nearly every ward. The 
current audited enrollment is 10,019. The projected enrollment of 
schools under our authority for fall 2004 is over 12,000 students. 
Public charter schools operating under our Board's authority account 
for over 70 percent of total city-wide charter school enrollment.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    With 18 percent of public school students attending charter 
schools, one of the highest per capita rates in the Nation, Washington, 
DC has become a leading provider of public school choice.
    Students who were previously limited by their neighborhoods and 
economic circumstances now have a multitude of educational options. 
With the great diversity of choices among charter schools, parents and 
educators have come to embrace the concept that one kind of educational 
approach does not fit all students. Parents can now choose between 
programs that emphasize Math, Science, and Technology, the Arts and 
Humanities, Language Immersion, College Prep, Character Development, 
Public Policy and Civic Engagement, while others focus on the critical 
fundamentals of literacy and math. Schools use diverse instructional 
approaches including Expeditionary Learning, Family/Community Centered, 
and vocational instruction among many others. There are schools that 
cater to special needs students, dropouts, and English language 
learners. Many have extended hours, Saturday classes and mandatory 
summer preparation. One high school is the first and only urban 
boarding charter school, located on a state of the art college-like 
campus in far Southeast.
    In addition to the fundamentals, students are learning analytical, 
communication and technology skills in elementary through high school--
many skills which were not taught to previous generations of public 
school students, but are critical for success in this rapidly evolving 
global economy. We know of numerous examples of students who were 
several grades behind and have since reached grade level with pride and 
a love of learning. Many who never thought it possible are now enrolled 
in college, having been prepared by one of the public charter high 
schools. One of our high schools has maintained a 100 percent rate of 
college acceptance among their graduating classes. All but one of the 
other high schools have maintained exceptionally high percentages of 
graduation and college acceptance rates. As you may know, this is 
exceptional among public high schools in this city and nationwide.
    We are extremely proud of what these dedicated teachers, 
administrators, parents, and community members have accomplished in a 
relatively short period of time. With continued growth in existing 
schools, and new schools opening, it is our expectation that in the 
very near future long waiting lists for the most popular charter 
schools will be lessened, and every student in the city will have 
access to quality, exciting public school experiences. Our Board is 
intensely focused on maintaining rigorous standards for new charter 
school applications, and holding existing schools accountable for 
measurable student achievement. With adequate support, we can clearly 
envision the important role that charter schools will play in making 
Washington, DC a national example of excellence and innovation in 
public education.
    While we are extremely pleased with charter schools' achievements, 
there are still very serious issues that must be addressed as we plan 
for continued progress. The two major challenges that threaten to stall 
charter schools' progress are the ongoing facilities needs, and the 
numerous challenges associated with NCLB implementation and compliance.
        obtaining facilities in a competitive real estate market
    Members of this committee are well aware of the fact that public 
charter schools must compete for facilities in a real estate market 
that is rapidly appreciating. The District of Columbia has one of the 
tightest commercial real estate markets in the country, with the lowest 
commercial vacancy rate of any major city in 2003 (Colliers 
International). Often, schools that wish to create optimal learning 
spaces for their students are faced with the dilemma of having to fund 
renovations in a new site while they carry the rental costs in their 
current site. Construction costs are at their peak, as demand for real 
estate within the District has soared.
    The graph below illustrates the difference between the D.C. Rental 
Rate trends and the facilities allowance, on a per pupil basis. (This 
uses Class C office space as a proxy for the type of space that charter 
schools typically seek to rent; applicable data on commercial real 
estate purchases are harder to locate.)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Numerous charter schools are operating under leases that were 
negotiated based on the expectation that the facilities funding will 
increase at the very least in accordance with the established yearly 
adjustments to the formula. One charter school pays a monthly lease of 
$90,000, which is nearly twice its facilities allotment. This 
particular school was forced out of its previous facility by commercial 
development interests, and had the choice of accepting the exorbitant 
lease or closing its school. Another school has just been notified by 
its landlord that it will have to vacate its facilities at the end of 
June. That school will likely be in a similar predicament in the coming 
months. While charter schools struggle with this ongoing challenge, 
buildings in DCPS' and the city's inventory remain unused or 
underutilized. The City Council has committed to assisting charter 
schools in accessing space in these facilities to lessen their pressure 
to compete in a tight real estate market.
    The Congress, and this committee in particular, have responded to 
our concerns by appropriating additional funds associated with the 
recently passed voucher program. As a result of this legislation, 
several million dollars were made available for credit enhancements for 
charter schools. This funding will provide a valuable source of 
financing assistance to those schools that are in the position to 
finance a building purchase or renovate existing space. However, the 
majority of these funds are not direct grant support, but revolving 
loans. Also, because they are appropriated to specific programs like 
City Build, the D.C. Credit Enhancement Fund and Sallie Mae's Building 
Hope Initiative, they will not benefit all charter schools. Only a 
handful of schools will be selected for the City Build and Building 
Hope assistance, and only those schools positioned to finance a 
purchase or major renovation will apply for the Credit Enhancement 
dollars.
    It is particularly critical that appropriations--from the District 
and Congressional sources--balance credit enhancement-type funding with 
direct grant support. Schools can benefit by dollars leveraged through 
credit enhancement and bond issuances--but only if they have adequate 
and predictable income to service their debt. The direct support of the 
D.C. charter schools facilities allowance is absolutely critical to the 
viability of charter schools in our urban setting. We were startled 
this spring to see the Mayor's proposed fiscal year 2005 budget freeze 
the charter schools' facilities allowance. After discussion with his 
staff, we now understand that that funding will be restored to its 
legislatively prescribed level. Our Board's only concern is that these 
Federal funds should not be misunderstood as a substitute for the local 
dollars that fund expected, annual adjustment to the facilities 
allowance.
    We applaud and appreciate the committee's thoughtful appropriation 
of these funds, but we encourage the committee to consider local 
input--especially from the charter authorizing bodies responsible for 
overseeing these schools--when you make future investments in D.C. 
charter schools. We would be glad to provide information and insight 
into the needs of these schools.
                             nclb concerns
    Charter schools have expressed their concern about the Teacher 
Quality provision of the NCLB legislation. Before NCLB, standards for 
teacher quality were established by the Charter Law (School Reform Act 
of 1995). The law required all teachers to have at least a bachelor's 
degree, but specifically did not require certification. Without this 
requirement, many charter schools were able to hire professionals with 
rich backgrounds, extensive professional experiences and creative 
approaches to teaching. Many of these individuals chose to leave 
lucrative careers for an opportunity to impact young lives. Now, with 
NCLB requirements for Highly Qualified Teachers looming, charter school 
teachers are being told they must immediately take the required 
coursework and the Praxis exam, or lose their positions. Under NCLB, 
States may create an alternative route to reaching Highly Qualified 
Teacher status through a High Objective Uniform Standard of Evaluation, 
or ``HOUSE.'' The District of Columbia has not yet developed criteria 
for an alternative HOUSE standard, which would allow very experienced 
teachers to qualify under NCLB without undergoing the traditional 
certification processes. So, charter schools are essentially being 
forced to have their teachers complete nearly all the requirements of 
traditional certification--contradicting the intent of the charter law. 
The principles underlying the NCLB law are admirable, and this Board 
supports the effort to ensure that all teachers are highly qualified to 
serve our students. However, the timeline to comply is creating 
numerous challenges to schools that are small and cannot as easily 
compete for the small pool of teachers who meet these specific 
requirements. In addition to the financial burdens associated with 
securing adequate facilities, individual charter schools must also 
compete with DCPS on salary and benefits to recruit teachers. 
Compliance with NCLB is having a significant financial impact on 
charter schools.
                        board's new initiatives
    The Board has begun new initiatives to meet the demands of the 
growing charter school population. Several new charter schools will 
open this fall, and many charter schools have been approved to expand 
their current enrollment ceilings. The number of schools authorized by 
this Board will increase by 23 percent, and the student enrollment is 
expected to increase by 20 percent this fall. In anticipation of this 
growth, the Board will hire additional staff, increase office space and 
expand its technical assistance to schools in the areas of special 
education services, school governance, and No Child Left Behind 
compliance and accountability. We have invested in greater capacity to 
provide comprehensive data analysis, performance reporting and public 
accountability of the schools we have authorized. Our Board is actively 
engaged in strategic planning for the opportunities and challenges that 
will inevitably come as a greater proportion of public school students 
are enrolled in public charter schools.
                               conclusion
    The D.C. Public Charter School Board is heartened by the intense 
focus on improved public education currently being demonstrated by our 
local elected leaders. Members of our staff have met with key staff 
members in the offices of the Mayor and the City Council on specific 
charter school concerns and possible solutions. We are increasingly 
confident that new legislation and budget decisions will include this 
Board's input. Though much remains to be done, we are also encouraged 
by the increased collaboration between DCPS and charter schools, the 
Board of Education Charter Office and the Public Charter School Board, 
and between the chartering authorities and the State Education Office.
    As local and national leaders work together to solve the persistent 
challenges of adapting public education to the changing needs of this 
society, this Board remains a committed partner in that process. We ask 
that this committee support the City Council's efforts to invest 
appropriately in per pupil and facilities funding for D.C. public 
school students. In addition to approving the basic funding for D.C. 
Public and Public Charter Schools, the PCSB realizes that this 
committee also appropriates funds for programs that its members believe 
will benefit the children of the District. Monies are earmarked to 
cultural and community organizations so that they may offer programming 
to D.C. public school students. These funds provide valuable services 
to students, but they are often directed toward students of the DCPS 
system rather than all public school children in the District. Our 
Board urges this committee to make any such appropriations language 
inclusive of charter school students.
    As always, we are grateful for this committee's ongoing support of 
this Board's work, and the efforts of our charter schools. Thank you 
for this opportunity to provide this input and we invite any questions 
you may have at this time.

    Ms. Baker. I can wait if that is your preference.
    Senator DeWine. Well, Ms. Baker, do you have some things to 
add to this?
    Ms. Baker. I was going to talk a little bit about No Child 
Left Behind.
    Senator DeWine. Okay. Why don't you do that now, then?
STATEMENT OF JOSEPHINE BAKER, EXECUTIVE DIRECTOR, 
            DISTRICT OF COLUMBIA PUBLIC CHARTER SCHOOL 
            BOARD
    Ms. Baker. Thank you for the opportunity to talk with you 
this morning. A couple of issues with No Child Left Behind, and 
one of them, I think, as we look at the baseline that students 
are supposed to meet in any given year is if you have new 
charters starting, there is no allowance there for them to 
establish some other baseline.
    In other words, if, 2 years from now in the District 
program, the baseline is, say, 60 percent proficient and they 
start--and often charters do get those parents who have 
concerns about the lack of progress of children and they start 
with children who are way below. There is no way that they are 
going to have time to build those children up to that level.
    I don't know how that can be executed, but it is something 
that I have talked about with those in the area of assessment 
and those in the area of actually working with the progressive 
steps that the District has put into place. We certainly have 
no objection to the movement of children up the ladder. I mean, 
that is what we are all about, but it does seem that we ought 
to be able to look at what does a new school have to do to 
establish itself. It should not in year 1 be considered, quote, 
``a low-performing school'' simply because it just got started.
    The other thing, I think, deals with teacher quality. We 
believe that, yes, there have to be qualified teachers, but 
what does that mean? I think I heard the statement that we have 
the same standards. No, teachers in charter schools do not have 
to be certified. They must have degrees. Now, the standard says 
they must take the praxis in order to meet the other qualifier.
    I think that one of the things that we would like to look 
at is you have people who come into the teaching profession 
with tremendous skills in their area of expertise, be it math, 
be it science, be it government, or whatever, and many of these 
people are successful teachers.
    We came up with some creative things in our office that 
might certainly work well. We sort of tried to think outside 
the box, and to have the praxis is one thing, which is an exam 
that, yes, does give you some indicators. But there are many 
other indicators of individuals' ability to meet the needs of 
students.
    Certainly, you can look at the progress of the students 
over a period of 2 or 3 years, and if every class of students 
that a teacher has made progress, and significant progress, it 
seems to me that this is one of the kinds of things that one 
could implement.
    Again, we believe that the proof is in the pudding, and our 
pudding is accountability. And we have to see the success in 
students moving along a pendulum, recognizing that most of our 
schools start at a level of proficiency that is quite low 
simply because we often get the students who are least prepared 
to move up the pendulum.
    So that is one of the things that we are very concerned 
about: How do we maintain these teachers, because the 
accountability is in the proficiency that students reach over 
the long term. It is not 1 year, it is not 2 years, but over a 
period of several years one would know whether or not a teacher 
is indeed showing proficiency in terms of their level of 
delivering educational services. So I think those are some 
kinds of things that we can certainly tweak there that would 
make a difference.
    Thank you.
    Senator DeWine. Good. Thank you.
STATEMENT OF PEGGY COOPER CAFRITZ, PRESIDENT, DISTRICT 
            OF COLUMBIA BOARD OF EDUCATION
    Ms. Cooper Cafritz. Good afternoon, Senator DeWine.
    Senator DeWine. Good afternoon. Thank you.
    Ms. Cooper Cafritz. Senator Landrieu, nice to see you, and 
thank you for all that you do for children in the District of 
Columbia. I am going to skip over a lot in order to hit what I 
hope are some salient points.
    First, I want to talk about facilities. Nine of our 15 
schools are in public school facilities, and we have just 
reached an agreement to create a partnership with Maya Angelou 
Public Charter School which will put them in a shared public 
school facility. We have reached an agreement with Two Rivers 
Charter School, which is a newly opening charter school, to 
place them in a facility as of September and to work with them 
through the coming year to see if we can do a joint deal which 
would have them getting the funding to renovate another 
building which we would share, and then the public school 
system would rebate their rent in exchange for them having paid 
for the renovation of the school.
    The reason for that is that charter schools can get bonding 
and DCPS public schools cannot, and our capital budget, as you 
know, has decreased precipitously over the last years and is 
scheduled to decrease more. So we are looking at some very 
creative public-private partnerships, some of which would 
include co-location with charter schools.
    We have also, through our Facilities Department, created a 
charter school facilities task force which consists of 
representation of charter schools, not only those under the 
jurisdiction of our chartering authority, but the other 
chartering authority as well, and of the school system.
    But I really urge Congress to look at school facilities in 
the District of Columbia as an issue that is at a crisis level, 
and it affects all of our students, all of them. I would even 
go beyond including charters and public schools. It is a huge 
problem and the funding is decreasing for it. So we are going 
to need your help in being more expansive in public-private 
partnerships so that it can be done on funds that are just not 
generated by the public coffers. That is one of the most 
important things that you could do for all of us.
    Another thing I want to address is governance. We need from 
you some more clear instruction about governance. Since I have 
been in office, we have closed five charter schools for fiscal 
malfeasance, and we have requested the CFO's office for nine 
audits since my term in office and we have received about two. 
One of them was extremely flawed, recommending that a 
relationship be continued where a husband is being paid $1 
million for a school facility that his wife runs. There are 
lots of issues like that. There are some fabulous schools, but 
they are being tainted by the not-so-fabulous.
    On the academic side, I want to make a couple of points. We 
have a hundred grade schools, a hundred elementary schools, and 
of those three of the top five charters are governed by us; 
that is, by the Board. So three of the top five charters are 
governed by us, but they lag behind public schools. Some of 
them are improving, but a lot of them are not.
    Generally, the best managed charter schools are the best 
charter schools. There is definitely a correlation. I realize 
that charter schools need to be independent, but we need to be 
able to stop the bleeding earlier than we currently can. We 
just discovered a charter school that actually had several 
felons on its staff, but there is nothing we could have done 
before the period of examination in order to find that out. So 
we have got to get tougher on the schools that are not making 
it.
    Another thing that is really important is in applying for 
charter schools, you have a lot of people who have seen charter 
schools as a jobs program for adults and have thought, oh, this 
would be a great idea, let's open up a charter school.
    I think that we need to be more aggressive about 
approaching institutions such as universities or the National 
Science Foundation or Fannie Mae and saying, you have all of 
these professionals at your fingertips, some who are steeped 
academically and who are great sharers; work with us to create 
charter schools that start from a very, very sound basis so 
that we can get the hustler out of the charter school movement. 
That is something that has been an affliction in our ranks that 
I think we are grappling with.

                           PREPARED STATEMENT

    I think we have to be very careful. We need to feel that it 
is okay, charters are strong enough. So if we are trying to 
make the movement better and it takes criticizing some of them, 
it doesn't mean that we are damning the charter school 
movement. I think that Congress has to be open to working with 
us on dealing with some of these problems very directly.
    I will end there so you can ask questions, if you like, 
when the time comes.
    [The statement follows:]
               Prepared Statement of Peggy Cooper Cafritz
    Good morning, Chairman DeWine, Ranking Member Landrieu and members 
of the subcommittee. I am Peggy Cooper Cafritz, president of the 
District of Columbia Board of Education (Board). Thank you for this 
opportunity to testify on behalf of the Board in its capacity as a 
chartering authority, regarding challenges or barriers to strong 
charter schools and how policy makers can contribute to educational 
reform. We appreciate your willingness to assist us in ensuring that 
charter schools remain a strong and viable choice of publicly funded 
educational options.
    Since the passage of the District of Columbia School Reform Act, 
the number of charter schools and students has grown precipitously. The 
Board now has 15 charter schools, 3 new schools to be open in the fall, 
and 3,646 students. Just with our current schools, we expect to grow by 
an additional 2,900 students in the next 5 years. It is evident that 
charter schools are an increasingly popular alternative to traditional 
public schools. With this increased demand we must ask the question 
whether this alternative is achieving its intended purpose to increase 
academic performance both in charter schools and traditional public 
schools and what are the challenges to achieving that goal.
    We believe that student academic achievement in charter school is 
improving in our charter schools. At the elementary school level, the 
average percentage of students who test proficient (grade level) in 
reading and math is 47.8 percent. In our charter schools at the junior/
middle school level, the average percentage of students who test 
proficient (grade level) in reading is 34.8 percent and in math is 
33.86 percent. In our charter schools at the senior high school level, 
the average percentage of students who test proficient (grade level) in 
reading is 13.71 percent and in math is 17.68 percent. Given the dismal 
performance of students at the middle and high school levels, we must 
work together to find greater options for students at those levels. We 
must also fix the problems at the elementary school level. Although the 
above test scores are mean averages and the test scores of students who 
attend specialty programs for at-risk students, test score are not 
where we want them to be. There has been increases over time in most 
charter schools, but there are some charter school where progress has 
not been made as fast as we would have liked.
    As you know, the charter schools have great autonomy in their 
operations and instructional approaches. Under the current regulatory 
structure, the only choice that is available to us is to revoke a 
charter when a charter school is not performing. By then it is too 
late. We have had to close the doors of five charter schools, which had 
financial and operating problems. The charter authorities need greater 
regulatory oversight authority to intervene, apply sanctions, and take 
corrective actions when there are clear indicators that a school is 
headed into trouble. Part of the problem has been the difficulty in 
defining minimum academic standards. The charter authority with the 
help of professional assessment organizations must tackle this problem. 
The No Child Left Behind Act does define failing schools. We must act 
before they are defined as failing.
    We have addressed this problem by examining applicants more 
stringently and becoming more discerning in our decisions. It is clear 
that most of the organizations and individuals that do pursue opening 
charter schools require technical assistance and more rigorous 
administrative and academic training. Once an applicant proceeds 
through the application process, the applicant can obtain funds to 
better refine the application and assist the applicant during this 
period. Congress should consider supporting financially efforts to 
provide technical assistance to applicants before they even submit a 
petition to become a charter school, as is done in other States. We 
have found that many applicants lack the technical background to 
prepare a petition that contains sufficiently sound administrative and 
academic plans. Potential applicants would benefit from such efforts.
    It is also clear that we must do a better job in aggressively 
pursuing those programs affiliated with universities and other 
educational research entities that are exploring innovative 
instructional strategies that will improve academic performance. We 
have fully used charters schools as a laboratory to try different 
approaches to teaching students how to read or perform math. In the 
District of Columbia, we are fortunate to be the home of many world 
class universities. We need to provide incentives to them to operate 
charter schools and use the resources of their institutions to help 
students learn.
    There are approximately 12,000 students enrolled in public charter 
schools in the District, representing roughly 16 percent of public 
school students in the District. To accommodate the growth and 
expansion of charter schools, there must be sufficient facilities. Even 
before a charter can be approved, it must have identified a facility. 
As the United States General Accounting Office (GAO) reported in its 
September 2003 report, ``Charter School--New charter schools across the 
country and in the District of Columbia face similar start-up 
challenges,'' securing a facility is one of the three greatest 
challenges facing new charter schools nationwide. The GAO further 
reported that in the District of Columbia finding space is particularly 
hard because of the cost of real estate and the poor condition of 
available buildings. Therefore, in order to address this problem, 
considerable support from all stakeholders in the city, including the 
local and Federal governments must be marshaled.
    In the District of Columbia, we have attempted to address this 
problem in a number of ways. First, there is a facilities allowance in 
the amount of $2,380 for non-residential students and $6,426 for 
residential students. These funds are through locally generated 
revenues. However, the costs associated with renting, purchasing and 
renovating facilities are prohibitive since enrollment determines 
funding levels and therefore, in many instances, the facility allowance 
has proved to be inadequate. This is compounded by the fact there is a 
strong preference to have small classroom sizes in the charter schools, 
as is the preference in traditional public schools. We would welcome 
the Federal Government's examination of what it costs to fund 
facilities and supplementing the District's support of this expense.
    Secondly, charter schools receive a preference for vacant 
buildings. Nine of the Board's 15 charter schools are housed in former 
DCPS facilities. We are in the process of assessing our facilities 
needs and will decide our current and future space requirements. As 
part of this effort, facilities staff of DCPS, the Public Charter 
Board, and charter schools have been working on a task force to 
generate recommendations on how to accommodate charter schools. One of 
the options under consideration is the co-location of charter schools 
in public schools with low enrollments. The benefits of co-location are 
considerable and far out weigh the costs to charter schools seeking to 
purchase or construct new schools. However, this approach also can be 
costly. Because the school system has been inadequately funded for its 
facility costs, most of the District's public school buildings have 
been poorly maintained. Therefore, sharing facilities with traditional 
public schools will require infusions of capital to renovate those 
facilities. The Board recently authorized DCPS to share space with the 
Maya Angelou PCS, which is chartered by the Public Charter Board. Other 
similar arrangements are under consideration. We believe that in order 
to implement a co-location policy, financial support will need to be 
obtained. The facility allowance should be adjusted to provide 
sufficient funding for small charters and traditional schools who agree 
to share facilities.
    In conclusion, improving academic performance of all students is 
the reason that charter school exists. We must work together to ensure 
that we are finding innovative programs to meet the needs of our 
diverse student populations. As we continue to improve the level of 
performance of charter schools, they will continue to grow in 
popularity and will generate more demand for space to house them. We 
are working with all our partners to meet that need. You can also help 
us by adequately ensuring that facility costs in DCPS are funded and 
help provide State support for the facility costs of charter schools. 
Thank you for your support of publicly funded education in the District 
of Columbia.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

STATEMENT OF ARIANA QUINONES-MIRANDA, EXECUTIVE 
            DIRECTOR, DISTRICT OF COLUMBIA PUBLIC 
            CHARTER SCHOOL ASSOCIATION
    Senator DeWine. Ms. Quinones.
    Ms. Quinones-Miranda. Good morning. Thank you for the 
opportunity to speak and thank you and the committee for the 
work that you have done to support charter schools in the 
District.
    My name is Ariana Quinones-Miranda and I am the new 
Executive Director of the D.C. Public Charter School 
Association. I just came on board last Monday, so I don't have 
an office yet, but I hope to make myself and our organization a 
resource to you as you move forward.
    I want to make three points today, and I will try to keep 
it brief. The first is to talk about the State education agency 
function, also facilities and charter school funding.
    In terms of the State education agency, as we know, the 
District's educational system has become more complex over the 
past few years. It is now not just one local education agency, 
but we have several because of the charter schools that exist, 
and now we have the voucher experiment as well. I think the 
oversight system needs to evolve as the educational providers 
have evolved.
    There is an issue or a potential conflict of interest in 
having one entity providing that oversight for the multiple 
providers when it is not set up to do it that way. The 
structure isn't set up appropriately, so I think we would 
support discussions around elevating the level of oversight for 
the CSA and separating that fully from DCPS. We have a partial 
separation with the State education office, and Council Member 
Chavous has a proposal, and the Mayor, to separate that more 
fully. I think that is probably a wise idea as we move forward 
with the expansion of the charter schools and the voucher 
program as well.
    Part of that is the disconnect that we have between DCPS 
and between the Board of Ed and these other entities, and that 
can lead to some complications in terms of implementation of 
some of the actual creative ideas that Ms. Cafritz has put 
forward. And it has implications for facilities, for the school 
funding piece.
    I wanted to highlight one example. In terms of No Child 
Left Behind, a lot of the targets that the State have to set 
are set by DCPS. The way that it is structured now, there is 
not a formal mechanism for that information and a lot of those 
regulations are set to kind of trickle down to the various 
charter schools. So if we had the one agency, we might be able 
to build in a more appropriate structure.
    So there is an example of AMAO's, which most people have 
not heard of. This is the annual measurable achievement 
objectives. It is the equivalent, basically, of AYP, but for 
English language learners. Currently, the Office of Bilingual 
Education within DCPS is the entity that is charged with 
informing the schools about that.
    I will say that Lisa Tobago, the director of the office, 
has done an excellent job of making the effort to do outreach 
to the charter schools. I don't know that that is happening 
within other divisions when information like that needs to get 
out. So I would hold her up as a model to say that it is 
possible for DCPS to do it if we are building in those 
structures. But if she hadn't made that outreach effort, there 
really are no consequences. So the charter schools are kind of 
left at the mercy of some of the middle management individuals 
in terms of whether they are making that extra effort or not.
    The next issue is in terms of facilities, I don't need to 
add that much. I think it is clear that the financing piece is 
being addressed. We can always, as has been said, use more 
funding. And, of course, a lot of that is in the form of 
revolving loans, which doesn't always help out all of the 
schools.
    A related component is the technical assistance. We also 
have, thanks to City-Build and some of these other 
organizations, providers now that can assist the schools in 
preparing for the loan underwriting process and to acquire 
facilities loans. But then we have the third issue, which is 
really the access of facilities.
    We know that there are a number of facilities that could be 
made available and it is not happening as smoothly as it could. 
So again in this area, we would support the proposal to create 
some form of entity or trust that might be able to have the 
oversight over the facilities for the District in one entity, 
and that might be able to also reduce some of the duplication 
of effort that is happening between different entities managing 
those efforts.
    Related to that is also the possibility of establishing a 
guarantee fund for charter schools, and that is related to the 
issue of school funding. The District of Columbia has one of 
the strongest laws, so we are fortunate in that regard. But yet 
every year when it is budget time, charter schools become 
targets and the funding formulas that we have are threatened, 
as just happened recently where there have been attempts to 
decrease the facilities allotment and to decrease and modify 
the pre-kindergarten funding formula.
    So with that level of uncertainty, it makes lenders wary of 
investing in charter schools in the District. So that guarantee 
fund might be a way to mitigate the sort of possible ups and 
downs of the funding formulas here in the District.

                           PREPARED STATEMENT

    I think, overall, we just need to make sure that as we are 
evolving all of the entities that are part of this educational 
landscape are coordinating their efforts in a better way. And I 
hope that with the existence of the association that we will be 
able to play a strong role in making sure that we are all 
communicating and collaborating well.
    Senator DeWine. Very good. Thank you.
    [The statement follows:]
             Prepared Statement of Ariana Quinones-Miranda
    Thank you for the opportunity to speak to you today. My name is 
Ariana Quinones-Miranda and I am the Executive Director of the new 
District of Columbia Public Charter School Association (DCPCSA). I 
began full-time on Monday, April 26, and I look forward to making 
myself available to work with you closely on education issues in the 
District.
    Charter schools are public schools and an integral part of 
education and child development in the District. The Mayor, the City 
Council, the State Education Agency, the DCPS Board of Education and 
Superintendent, and the District of Columbia Public Charter School 
Board must balance the needs and resources of the various forms of 
educating and supporting children in this city in a way that does not 
pit one against another. We have families where one child attends a 
charter school, another sibling attends a traditional public school, 
and conceivably a third may receive a scholarship to attend a private 
school. For most parents and families, the selection of a school for 
their child is not a political decision, yet we as leaders often make 
it so. As a parent, I consider the political climate because of the 
implications it has on whether the charter school I want my daughter to 
attend will be able to secure a site, stay in the same location for a 
reasonable period of time, and have enough funding left after lease or 
mortgage payments to obtain appropriate staff and instructional 
materials. If the charter school leaders must spend time ``advocating'' 
for things that often come automatically to traditional public schools, 
it will inevitably affect the quality of the educational program.
    State Education Agency (SEA) Functions.--As the District's 
educational system becomes more complex, the current governance and 
oversight systems need to evolve. Although some might disagree, when 
DCPS was the only Local Education Agency, having it combined with the 
State Education Agency was not especially problematic. Now that we have 
traditional public schools, public charter schools, and soon, private 
and parochial schools all providing educational services to District 
families, a fully-functioning and independent SEA is extremely 
important. There is an inherent conflict of interest in having DCPS 
handle what are normally SEA functions (including Federal grants). All 
State level functions should be handled by one agency and should not be 
bifurcated as they are now. The creation of the State Education Office 
was a step in the right direction, but does not go far enough. All of 
the issues I address in one way or another highlight the need for 
coordination across the three sectors and an independent SEA could 
greatly assist in the coordination and ``depoliticization'' of 
education in the District.
    This disconnect impacts various areas, from facilities, to Federal 
funding, to compliance and monitoring, professional development, and 
many others. To illustrate, one specific example is the communication 
across each of the sectors as it relates to compliance with No Child 
Left Behind (NCLB). AMAOs, or Annual Measurement Achievement 
Objectives, are targets set by each State for English language 
proficiency attainment as required by Title III. Title III of NCLB 
requires that limited English proficient students be assessed for 
English proficiency in kindergarten through grade 12. In effect, AMAOs 
are the equivalent to Adequate Yearly Progress (AYP) targets but are 
specific only to students who are limited English proficient. The 
reason I bring this up is that with all the attention paid to NCLB and 
AYP, most people, including educators, have never heard of AMAOs. And 
since the State sets the AMAO targets, in this case DCPS, the SEA has a 
role in ensuring that the charter schools are apprised of the targets 
and their responsibilities in ensuring that students meet them.
    This could easily be an area where that information is not shared 
with the charter schools simply because there is not a formal mechanism 
built in for it to happen. However, unlike in some DCPS departments, 
the Director of the DCPS Office of Bilingual Education has personally 
made the effort to include the charter schools in her outreach efforts. 
Still, with the current structure, there would be no consequences if 
she did not make the effort; and in many cases, DCPS staff do not.
    The latest version of Mayor Anthony Williams' plan to take control 
of the DCPS schools addresses this matter, at least at the governance 
level. The plan would reconstitute the Board of Education as a ``true 
State board of education'' with the power to set such State educational 
policies as minimum academic standards, attendance rules, and teacher 
certification and licensure requirements. The State Education Office, 
now under the control of the mayor, would become the ``secretariat'' of 
the State board and in that capacity would be charged with implementing 
the policies promulgated by the board. If the plan were adopted by the 
Council, authority over the 18 Board of Education charter schools would 
be given to the D.C. Public Charter School Board, which would become 
the sole chartering authority in the District.
    While this proposal seems appropriate, we are concerned that having 
only one chartering authority may be a step backward for the District's 
charter school movement by creating a charter school monopoly. Leaving 
aside the question of whether the BOE should or should not be in the 
charter school business (many think not), having multiple chartering 
authorities is the hallmark of a healthy charter school movement. 
Around the country, those States that have more than one chartering 
authority have more charter schools and more vibrant charter school 
movements.
    Facilities Access.--As you well know, the issue of charter school 
facilities is probably the most daunting challenge for local schools, 
although it need not be. With the multiple organizations and programs 
(Building Hope, CityBuild, Charter Schools Development Corporation, NCB 
Development Corporation, LISC, Raza Development Fund, etc.) that exist 
locally and nationally to support facilities financing, and the number 
of potential buildings in the District, increasing access to 
appropriate facilities for all students is be a goal we can accomplish. 
While some positive steps have been taken, there is more that can be 
done. In order for schools to obtain facilities, there are three 
prerequisites: training and technical assistance to prepare school 
leaders to navigate the facilities acquisition process, financing 
opportunities, and available buildings. The organizations mentioned 
above are taking care of the first two prerequisites. What schools 
struggle with is the third. To be clear, there is not a shortage of 
facilities, but an imbalance in terms of the accessibility of 
facilities. The table below provides an overview of the numbers.

------------------------------------------------------------------------
                 Indicator                        Estimated Numbers
------------------------------------------------------------------------
Number of DCPS buildings in inventory.....  About 190.
Number of DCPS schools in operation.......  About 146.
Number of DCPS underutilized schools......  About 20-30.
Number of buildings in Mayor's inventory..  About 20 available.
Number of charter schools.................  2003-2004: 37 charters on 41
                                             campuses and 18 percent
                                             enrollment.
                                            2004-2005: 45 charters on 50
                                             campuses and 22 percent
                                             enrollment.
Number of charters in permanent facilities  2/3 of charter schools are
                                             not in permanent
                                             facilities.
------------------------------------------------------------------------

    Another important factor here is the connection between charter 
school facility development and community economic development. Schools 
are often community anchors and can be drivers for community economic 
development by helping to attract private money that would allow the 
city to renovate dilapidated buildings that blight neighborhoods. The 
SEED school is a perfect example. SEED renovated a burned-out shell 
that had been set on fire more than 20 times in the middle of one of 
the District's most violent neighborhoods. Today, it is a functional 
residential campus. The city seems to be holding out for luxury housing 
for some of these buildings but, in order to attract families back to 
the neighborhood, updated schools buildings are also needed. Making the 
DCPS and District buildings available for charter schools is a 
strategic investment. Charter schools can help turn around 
communities--not just by renovating neighborhood eyesores, but by 
spurring economic development and bringing families back.
    The timing is right for working out a solution. DCPS has more 
buildings in its inventory than it did in 1996 when there were no 
charter schools and it has a significant number of underutilized 
buildings. Since then, DCPS has lost 18 percent of its enrollment to 
charter schools and this trend is likely to continue. Additionally, the 
city has vacant buildings and the administration seems willing to talk 
about the charter facilities issue. In fact, Councilmember Chavous is 
proposing that the Mayor have control over facilities through the 
creation of a facilities trust or entity that would oversee facilities 
in the District. We think that the idea of giving control of the 
facilities to a neutral party is the right solution. While it would 
require capital up front, I believe it may save money by eliminating 
the duplication of efforts among the various entities currently playing 
this role. And by structuring and staffing it appropriately, it can 
eliminate issues of perceived competition between traditional public 
and public charter schools.
    Charter School Funding.--While the District has one of the 
strongest charter schools laws, especially in terms of per pupil 
funding and the facilities allotment; each year as the District 
attempts to approve its budget, charter schools are a target and the 
funding provisions are threatened. Whether it's tinkering with the 
funding formulas or proposed reductions in allocations, this level of 
unpredictability makes it extremely difficult to plan school services 
from year to year. Particularly challenging are recent proposed 
decreases to the facilities allowance. Any change to the allocations 
and formulas will make it extremely difficult for schools to negotiate 
and secure financing for facilities as lenders are not comfortable 
working in an environment with this kind of unpredictability.
    Stabilizing this funding stream is important to lenders. If we are 
unable to guarantee that the funding levels will not decline, the 
establishment of a District of Columbia School Facility Guarantee 
Program would help to partially offset the risks. This program would 
guarantee some portion (if not all) of the mortgage and would serve as 
a credit enhancement for charter schools seeking financing. The 
guarantee level might be equivalent to the average/projected negative 
variances in the funding stream. The administration may find this 
attractive, because ONLY in the event of a default on a guaranteed loan 
would cash need to go out the door. Such a credit enhancement would 
strengthen the charter schools loan application and reduce the risk to 
the lender--yielding lower interest costs to the school, resulting in 
increased available finding for programs. Lower interest rates also 
increase the school's purchasing power to acquire an underutilized DCPS 
building.
    Lastly, there is a need to align the processes and formulas that 
are used in the budget process so that the administration can more 
effectively allocate the limited resources available. One example of 
this misalignment is that DCPS funding is calculated on prior year 
student enrollment while charter school funding is calculated on 
current year student enrollment. While there were reasons for having 
two different calculation procedures, it may be time to revisit that 
determination. That one variable allows for some students to be counted 
twice and could be a potential area for savings that would mitigate the 
need for proposals such as the recent ones to reduce the facilities 
allotment and the Pre-K multiplier. Based on the Mayor's estimate of 
the number of students in DCPS and charter schools, the average payment 
to DCPS for students who are actually enrolled in charter schools has 
been somewhere in the range of $9 million per year in the last 3 years, 
and in the next academic year, it could be as high as $20 million as 
3,200 students enroll in new charter schools.
    Thank you for your time and attention to these issues.
STATEMENT OF JOE NATHAN, DIRECTOR, CENTER FOR SCHOOL 
            CHANGE, HUMPHREY INSTITUTE, UNIVERSITY OF 
            MINNESOTA
    Senator DeWine. Dr. Nathan.
    Mr. Nathan. Mr. Chairman, I ask that you have one of these 
books and I don't know if you have that.
    Good morning, and thank you. Recognizing that a picture is 
sometimes worth 10,000 words, I am going to show a few pictures 
this morning, both verbal and hopefully in color. It is an 
honor to be here and I want to thank you both for your work on 
this important issue.
    I have been involved as a public educator for the last 33 
years. My wife has been a public school teacher for the last 
25. We have three children, all of whom have attended urban 
public schools in Minnesota. Both our older son and daughter 
are now working for the St. Paul public schools. I believe 
deeply in public education, and I believe deeply that one of 
the most exciting things that has happened in the last 35 years 
in public education is the charter school movement.
    In the next 4 minutes, I want to deal with four issues. 
First, why was the charter movement started? Why did a group of 
us sit down in 1988, draw some ideas on a napkin, and then why 
did legislators throughout the country decide this was a good 
idea?
    We did a survey which is summarized in the testimony. We 
surveyed 50 State legislators and legislative aides from around 
the United States in 1996 and they said the two most important 
reasons for the charter movement were, first, so that we would 
expand opportunities for young people who are not doing 
especially well in the current system. No doubt, there are some 
people doing very, very well in district public schools, but 
there are unfortunately too many who are not. Legislators said 
overwhelmingly meeting those needs was number one.
    No. 2, they said they are very concerned about the number 
of frustrated educators, and so legislators said over and over 
they wanted to provide new professional opportunities. So that 
was 1991 when the first law was passed, and I had the honor to 
help write that law and testify in 22 States about the charter 
idea.
    What has happened since then? Briefly, as you noted, Mr. 
Chairman, more than 40 States have now adopted charter 
legislation. I was just in Washington State 2 weeks ago where 
the most recent law was adopted.
    Who is going to charter schools? As the testimony provided 
to you shows, according to Federal figures, it is exactly what 
we hoped. This is increasingly an option for low-income 
youngsters and students of color, precisely the youngsters who 
are overall--and this varies, but overall they are not doing as 
well as other students in the district public schools.
    It is clear and obvious throughout the country, in 
Minnesota, in Ohio, in Louisiana, and so on, that it is the 
youngsters who are not doing so well who are going en masse to 
the charters, and this is a very important issue. Low-income 
youngsters and students of color are overrepresented in charter 
schools.
    How is this happening? I turn now very briefly to the 
document that, by the way, was provided with some Federal 
funds. Almost 45,000 people have downloaded this document since 
it was produced several years ago and it is a celebration of 
outstanding district schools and outstanding charter schools. I 
am going to point to only three.
    On page 37, there is a picture of the first charter in the 
United States, started by a young woman in St. Paul, Minnesota, 
who decided she wanted to do a better job with youngsters who 
were not succeeding. She did not have any facilities funds; she 
didn't have any start-up funds. This was 1991; no Federal funds 
at that point.
    So she went to the Democratic mayor of St. Paul and he 
arranged for her to have a city recreation center which was 
being underutilized. This is one of the principal things that 
has happened. You and your colleagues on a bipartisan basis 
have encouraged and stimulated the creativity that is so much a 
part of this country at its best, and this is a classic 
example. The first charter in the United States was in a city 
recreation center.
    If you skip ahead just for a moment to page 47, in Arizona 
another pair of young women decided that they would work with 
the Boys and Girls Club in Mesa, Arizona. This is the charter 
school that consistently shows among the highest improvements 
of student achievement of low-income youngsters and students of 
color. This is a charter that shares space in a Boys and Girls 
Club.
    If you move to the next page--and we are going quickly here 
because I want to honor the Chair's request to be concise--on 
page 49 you see the first charter in the United States to be 
run as a workers cooperative. This literally has inverted the 
traditional structure of public education. It is the teachers 
who set the salary. It is the teachers who set the working 
conditions. It is the teachers who are responsible. This has 
been recognized by the Bill and Melinda Gates Foundation as an 
extraordinary place, and now it is being replicated throughout 
the United States.
    Briefly, what have been the results? First, as the Chair 
pointed out, there are a variety of pieces of research. I don't 
have to tell anybody in this room that research varies, but 
there are many pieces of research to which I allude in my 
testimony showing that charter schools, even though they 
receive less money per pupil and they have all kind of 
facilities issues that the districts don't have to deal with, 
the charter schools are improving student achievement more 
rapidly than comparable schools. That is very, very important. 
It is not unanimous, it is not always that way, but in many 
cases it is.
    Secondly--and I can give you more examples in questions--
there are all kinds of examples of charter schools stimulating 
improvement in the larger system, and that is really critical. 
I will, in the interest of time, not tell you any stories about 
that, but I would be delighted to if you want to hear more--
very clear examples alluded to in the testimony of stimulating. 
The work that you are doing in Congress is helping to make that 
happen. It isn't just about creating thousands of charters. It 
is helping to stimulate, to use the best ideas about district 
and charter schools to cross-fertilize.
    Finally, I think that there are some lessons and the most 
important lesson I want to share with you today is not about 
money. What you have done as leaders to say to people 
throughout the United States in your States that it is a 
valuable, important part of public education is the single most 
important thing you can say.

                           PREPARED STATEMENT

    While all of us will say more money will help, 
unquestionably, the most important thing that United States 
Senators have done on a bipartisan is say to the people of the 
United States this is, as Victor Hugo put it, stronger than all 
the armies of the world, an idea whose time has come.
    Thank you.
    [The statement follows:]
                    Prepared Statement of Joe Nathan
    The Charter School Movement started with a napkin, a pencil and 5 
people around a table. Today the movement involves hundreds of 
thousands of students, 41 States, the District of Columbia, and one of 
the most remarkable education reform stories of the last 50 years.
    This testimony attempts to help answer five questions:
  --Why did legislators adopt charter legislation?
  --What are the central ideas of the charter movement?
  --What impact have charters had on students?
  --What impact has the charter movement had on the larger district 
        system?
  --What might Congress do to help maximize the benefits of the charter 
        idea?
             why did legislators adopt charter legislation?
    In 1996, the Center for School Change surveyed 50 legislators and 
legislative staff in seven of the first States to adopt charter 
legislation: Arizona, California, Colorado, Delaware, Louisiana, 
Massachusetts and Minnesota (Nathan and Powers, 1996). Top reasons for 
adopting charter legislation:
  --Better serving previously unsuccessful students;
  --Create new opportunities for educators and educational 
        entrepreneurs;
  --Expand the kinds of schools available; and
  --Pressure existing system to improve.
    The charter movement is sometimes equated, or regarded as similar 
to vouchers. For example, in January, 1992, the National Education 
Association declared itself ``unalterably opposed to any legislative 
initiative that would provide Federal funds to nonpublic schools, 
whether it be through tuition tax credits, vouchers, private school 
choice programs, the establishment of new charter schools, or private 
school demonstration projects.'' (National Education Association). 
Interestingly, in 1996, the NEA started a program to help members start 
charter schools--and some teacher unions continue efforts to help 
create charters around the United States.
    Returning to our 1996 survey of State policy-makers, we asked two 
questions about the link between the charter and voucher movement. We 
found that in NONE of the seven States did policy-leaders say the most 
important reason to adopt the charter idea was as a prelude to 
vouchers. In fact, in every State legislators were much more likely to 
see the charter movement as an alternative to the voucher idea. In each 
of the seven States, adopting charter legislation as a prelude to 
voucher legislation was in fact, the lowest rated major reason of seven 
options offered.
                       what is the charter idea?
    The charter idea is based on three of the most powerful ideas in 
the United States:
  --People ought to have a chance to carry out their best ideas;
  --This is a country of responsibilities, as well as rights; and
  --We believe in freedom and choice within some limits.
    The charter idea responds to each of these ideas. The charter idea 
has seven elements:
  --Charter schools are PUBLIC. They are open to all, with no 
        admissions tests. They are non-sectarian.
  --People should have a chance to create new, or convert existing 
        schools into charter public schools.
  --States will authorize more than one organization to sponsor or 
        authorize charter schools. These may be school districts, 
        universities, city councils, non-profit agencies, mayors or 
        other responsible groups.
  --There is an up-front waiver from most State laws about how schools 
        operate, and from local labor-management contracts. While being 
        expected to take State tests, and to follow Federal laws and 
        local requirements regarding buildings, charters will be given 
        extensive freedom about how to operate.
  --The conditions in which these schools operate will be spelled out 
        in a contract signed by the school and the sponsoring 
        organization.
  --In exchange for extensive freedom, charters will be expected to 
        improve student achievement over a period of 3-5 years, in 
        order to have their contract renewed.
  --Charter teachers will have key opportunities, including the right 
        to join unions, to be a part of a State-wide retirement program 
        offered for other public school teachers, and to take a leave 
        from their local district, without penalty, to try being a 
        charter teacher.
     what is known about the impact of charter schools on students?
    It's vital to recognize that there is no single charter school 
curriculum or philosophy. Asking people to describe charter schools in 
Louisiana, the District of Columbia, or anywhere else is a bit like 
asking people to describe restaurants in these communities. They vary 
widely. Some are highly effective schools. Others are not. Having 
recognized this, there is very encouraging research about the charter 
movement.
    First--what families are sending their children to charter schools? 
Initially, opponents like the Minnesota Education Association predicted 
that charters would be ``elite academies'' (Furrer, 1991). The reality 
is clear: charter public schools enroll a higher percentage of low-
income students and a higher percentage of students of color than do 
district public schools.
Demographics of U.S. District and Charter Schools

   RACE/ETHNICITY OF STUDENTS: TRADITIONAL PUBLIC SCHOOLS AND CHARTER
                             PUBLIC SCHOOLS
------------------------------------------------------------------------
                                   Elementary       Secondary & Combined
                             -------------------------------------------
                               District   Charter    District   Charter
------------------------------------------------------------------------
White.......................       61.4       44.7       66.6       48.9
Black.......................       18.1       31.0       15.0       21.8
Hispanic....................       15.7       19.5       13.3       22.7
Asian/Pacific Islander......        3.6        3.3        3.9        3.1
American Indian/Alaska              1.2        1.5        1.2        3.5
 Native.....................
------------------------------------------------------------------------


      PERCENT OF STUDENTS ELIGIBLE FOR FREE OR REDUCED-PRICE LUNCH:
          TRADITIONAL PUBLIC SCHOOLS AND CHARTER PUBLIC SCHOOLS
------------------------------------------------------------------------
                                   Elementary       Secondary & Combined
                             -------------------------------------------
                               District   Charter    District   Charter
------------------------------------------------------------------------
Less than 15-49 percent.....       61.5       58.5       71.6       56.4
50-100 percent..............       38.6       41.5       28.4       43.6
------------------------------------------------------------------------
(U.S. Department of Education, NCES. Schools and Staffing Survey (SASS),
  1999-2000.

    Various studies show the value of charter laws and charter schools. 
Let's begin with the evidence about charters improving student 
achievement.
  --A study of charter schools serving a general education population 
        (as opposed to charters established to serve students with whom 
        traditional schools have failed), found that ``charter schools 
        serving the general student population outperformed nearby 
        regular public schools on math tests by 0.08 standard 
        deviations, equivalent to a benefit of 3 percentile points for 
        a student starting at the 50th percentile and outperformed 
        regular public schools or reading tests by 0.04 standard 
        deviations, or about 2 points for a student starting at the 
        50th percentile.'' (Greene, Jay et. al)
  --A study of California charter schools that converted from district 
        to charter status finds ``many conversion charters are 
        producing average test scores with populations of children 
        historically associated with low test scores.'' (Loveless, p. 
        33)
  --A 2001 study by the Colorado Department of Education found that the 
        average score of charter school students exceeds the State 
        average by a significant margin, and also exceeded the scores 
        in ``matched'' public schools. Colorado charters' population is 
        nearly as diverse as the State's district school enrollment. 
        (Colorado State Department of Education)
  --A study of charter students in Arizona found that charter students 
        are making greater gains in reading, and about the same gains 
        in math, as students in district schools. (Solomon, et. al)
  --An analysis by the Center for School Change showed that charter 
        schools in Minneapolis enroll a higher percentage of low 
        income, limited English speaking and minority students than the 
        district. However, a higher percentage of students made a 
        year's worth of progress in reading, math or both at six of 
        nine charter schools sponsored by the Minneapolis Public 
        Schools, than the district average. The same analysis found the 
        same situation for five of the seven charters sponsored by the 
        district over the last 2 years. (CSC, 2004)
  --A report released in January, 2004, by California's non-partisan 
        Legislative Analyst's Office praised that State's charter 
        movement, and urged that it be expanded. Among the conclusions 
        were that ``charter schools are a viable reform strategy--
        expanding families' choices, encouraging parental involvement, 
        increasing teacher satisfaction, enhancing principals' control 
        over school-site decision-making and broadening the curriculum 
        without sacrificing time spent on core subjects. (Legislative 
        Analysts Office)
  --University of Wisconsin researchers surveyed hundreds of charter 
        school graduates in five States and the District of Columbia. 
        Ninety-three percent said that given the choice, they would 
        again select their charter high school. More than 80 percent 
        rate charter school education as better than the education in 
        the typical high school. (Center on Education and Work)
    Another value of the charter movement is that it has developed some 
new, potentially valuable ideas other schools can use. Here are a few 
examples, of many that could be offered:
  --Minnesota New Country School developed the idea of teacher owned 
        schools run as a cooperatives. This is a new option in the 
        profession, giving educators the chance to act more like some 
        doctors and attorneys, who select their office administrators, 
        and run institutions as they think they ought to be run. MNCS 
        also operates a secondary school that uses project-based 
        learning approach, in which few classes are offered. Instead, 
        students, with their families and an advisor, develop an 
        individual plan that helps them meet their own needs and 
        interests, as it satisfies performance-based graduation 
        requirements. Students are expected to make public 
        presentations three times a year. Because the school enrolls 
        about 120 students, grades 7-12, there are virtually no classes 
        and no bells, and students may move freely around the school, 
        operating much like adults. This means they work on projects 
        for a time, and then, on their own schedule get up and go to 
        the restroom, or spend a few minutes as they wish, before 
        returning to work. In recognition of the value of this 
        approach, the Bill & Melinda Gates Foundation has given the 
        school millions of dollars to replicate itself. (See 
        Dirkswager.)
  --A number of charters are using the idea of sharing space with 
        social service agencies as a way to provide better service to 
        students. Examples include the MESA Arts Academy, a highly 
        rated Arizona charter, that shares space with a Boys and Girls 
        Club; City Academy, the Nation's first charter, that shares 
        space with a city recreation center; Codman Academy in Boston, 
        that shares space with a local social service/medical center; 
        and LEAP Academy in Camden, New Jersey, that does the same 
        thing.
  --KIPP Academy has developed a set of practices that has produced, in 
        several settings, academic achievement significantly higher 
        than other nearby inner city schools serving similar groups of 
        students. (Wingert and Kantrowitz, 2003)
  --Minnesota's New Vision Charter School has developed methods of 
        dealing with disabled students that are being replicated 
        successfully elsewhere. Impressed with NV's results, the 
        Minnesota legislature has allocated more than $900,000 to help 
        other schools learn from New Visions. Results have been very 
        encouraging. (Minnesota Learning Resource Center)
  --Cesar Chavez Academy in Pueblo, Colorado ranked last year as among 
        the 10 highest achieving schools in the State, despite the fact 
        that more than 70 percent of its students are from low-income 
        families and more than half do not speak English in the home. 
        Cesar Chavez has developed a mixture of emphasis on the arts 
        and on academics that the National Council of La Raza is 
        sharing with other charter schools throughout the country.
   what is the impact of the charter movement on the larger district 
                                system?
    In some places, the charter approach has helped stimulate broader 
improvement. Research by Eric Rofes found that in States with strong 
laws, that included multiple-sponsorship, the existence of a charter 
public school sector encouraged improvement in existing schools: 
``District personnel on at least five occasions in this study 
acknowledged, sometimes begrudgingly, that charters had served to jump-
start their efforts at reforms. While they initially opposed charters 
and the chartering had been accomplished outside their authority, they 
felt that district schools ultimately had benefited from the dynamics 
introduced by the charter school.'' (Rofes, p. 19) Rofes noted, 
``States which had policies that provided for the chartering of new 
schools only through the local district showed significantly less 
evidence of reform efforts from the development of charter schools than 
did States which allowed for multiple sponsors.'' (Rofes, p. 19)
    Major research by Caroline Hoxby, an economics professor at 
Harvard, agrees that competition from charter schools has helped 
improve district schools. (Hoxby) She concludes ``Public schools do 
respond constructively to competition, by raising their achievement and 
productivity.'' In studying Arizona and Michigan, Hoxby writes, 
``Public Schools that were subjected to charter competition raised 
their productivity and achievement, exceeding not only their previous 
performance but also improving relative to other schools not subjected 
to charter competition. The improvements in productivity and 
achievement occur once charter competition reaches a critical level 
that happens to coincide with the enrollment at which charter schools' 
taking students would be easily discernible and probably start creating 
consequences for staff.'' (Hoxby, pp. 41-42)
    Another example, from Dr. Kent Matheson, the former Washington 
State superintendent of the year, and president of the Washington State 
Superintendent's association, helps illustrate how competition can help 
improve schools. In 1998, this author was invited to debate Dr. 
Matheson in front of several hundred Idaho public school 
administrators.
    Matheson stunned the audience by noting that he originally had 
opposed the charter idea when he moved to Flagstaff, Arizona to serve 
as superintendent. He initially regarded charters as: ``Cutworms that 
would hurt the whole field of education. When planting a field, if you 
see cutworms, you use pesticide. That's what I wanted to do--stop the 
charter movement--but gradually I became a convert to the charter idea. 
Our state's charter law was a very strong motivating force making us 
want to compete.'' (Matheson, p. 1)
    Matheson continued, describing a former State teacher of the year 
in his district who had been proposing a high school in cooperation 
with a local museum that would require all students to make 
presentations judged by local community and business people before 
graduating. The district principals resisted these ideas, and Matheson 
did not over-rule them. When the charter law passed, this outstanding 
teacher made one last attempt to convince the district her ideas made 
sense. When she was again rejected, she set up the proposed program as 
charter school. Her students were required to make presentations 
judged, in part, by community residents, before graduating. Matheson 
noted that when he and high school principals went to meetings with 
business groups, they began to be asked why the district was not doing 
what this charter school was doing. After some discussion, the high 
schools implemented this practice. Matheson listed several other 
reforms that were motivated, in part, by competition from local charter 
schools. (Matheson p. 2)
    Another example of response to competition comes from Boston. 
There, in the early 1990's, the local teachers union proposed creation 
of new small school options within the district, which would have been 
similar to those that have been created as part of the New Visions 
program in New York City. However, the local school board (called the 
School Committee) rejected this idea. Then the Massachusetts 
legislature passed a charter law, allowing educators and community 
groups to apply directly to the State for permission to create a 
charter school. Eighteen of the first 64 charter proposals came from 
Boston. Faced with the potential loss of thousands of students, some of 
the district's most innovative teachers, and millions of dollars, the 
School Committee reversed itself, and created the Boston Pilot School 
program. (See Nathan, 1999 for additional details) With support from 
the National Science Foundation, William Ouchi, a professor at the UCLA 
Graduate School of Management, studied 223 schools in six school 
districts during 2001-2002. Ouchi discovered that the schools that 
consistently performed best also had the most decentralized management 
systems and as he put it offered families ``real choices among a 
variety of unique schools.'' (p. 181) As Ouchi pointed out, ``there are 
two important aspects to school choice: one is the simple freedom to 
choose--to vote with your feet, so to speak--and the other is having a 
choice from among a wide variety of different schools.'' (Ouchi's 
emphasis, p. 183)
    Ouchi strongly supports choice within schools operated by a 
district, as well as the chartered school approach. As he concluded, 
``the charter school movement is likely to grow because its underlying 
logic is unassailable.'' (p. 193)
    Since 1992, the charter movement has grown from 1 to 41 States and 
the District of Columbia, from 1 school to almost 3,000. Clearly, this 
is a movement that can be well described by a quote from Victor Hugo: 
``Stronger than all the armies of the world is an idea whose time has 
come.''
    how can congress maximize the positive impact of this movement?
    At this point, members of Congress often hear pleas for more money 
to be allocated in certain ways. That's not where I'll start, because 
while money can be important, my sense is that it is NOT the most 
important thing you can do.
  --Help people in your State, and in the United States, understand the 
        value of the charter movement. In speeches, in publications, on 
        your websites, and in other ways, point out the many successes 
        of the charter movement. Visit charters in your State. Hold 
        hearing with charter and district officials, where they have a 
        chance to learn from each other. Ask your State departments, 
        universities, chambers of commerce and other groups to invite 
        people from outstanding charter schools to speak at their 
        meetings and conferences. Ask Universities in your State how 
        often they invite successful charter school teacher and 
        directors to teach courses for current or prospective teachers 
        and administrators.
  --Continue to help charter schools deal with the facility issue. A 
        variety of studies have identified the building issue as one of 
        the greatest challenges for the charter movement. You wisely 
        have allocated funds to help with building purchase and loan 
        guarantees. You may want to provide incentives for social 
        service agencies, businesses and other groups to share space 
        with charter and other schools.
  --Continue to provide startup funds for charter schools. This has had 
        an enormous positive impact. District schools typically receive 
        millions of dollars to help them start new schools. Charters 
        independent of school districts do not have anything like this, 
        in a single State.
  --Recognize and promote the idea that it is helpful for overall 
        school improvement, to have a charter sector competing, as well 
        as collaborating with the district system. Americans believe, 
        for very good reasons, in opportunity, choice and freedom. We 
        are wary of monopolies. Having a strong charter sector 
        increases the likelihood that funds you allocate for school 
        improvement in district schools will be better spent.
    The charter idea, like so many of the best ideas in American, 
brings together a variety of people. People like civil rights legend 
Rosa Parks, the late, liberal U.S. Senator Paul Wellstone, President 
Bill Clinton and the former and current Presidents, named George Bush. 
As The New York Times noted, Parks has tried to start a charter school 
in Detroit. (Abdullah) In speaking to a joint session of the Minnesota 
legislature, Wellstone referred to the charter idea, as ``that 
marvelous Minnesota innovation that is spreading throughout the 
country.'' (Wellstone). And each of the last three U.S. Presidents, 
Republican and Democrat, has endorsed the charter idea, and encouraged 
Congress to provide start-up and other funds to help promote this idea. 
Thank you for listening. Thank you for your openness and your 
leadership. Thank you for the opportunity to talk with you today. And 
thank you for recognizing, encouraging and assisting the charter school 
movement.
                            references cited
    Abdullah, Halimah. Rights Hero Seeks to Open School in Detroit, The 
New York Times, June 30, 1997, p. A12.
    Boyd, William Lowe, Hare, Debra, and Nathan, Joe. What Really 
Happened? Minnesota's Experience with Statewide Public School Choice 
Programs. Minneapolis: Center for School Change, Humphrey Institute of 
Public Affairs, University of Minnesota, May 2002.
    Center on Education and Work, University of Wisconsin. 2002 Charter 
High School Graduate Survey. Madison, Center on Education and Work, 
University of Wisconsin, 2002.
    Cheung, Stella, Murphy, Mary Ellen, and Nathan, Joe. Making A 
Difference? Charter Schools, Evaluation and Student Performance. 
Minneapolis: Center for School Change, Humphrey Institute of Public 
Affairs, University of Minnesota, March 1998.
    Colorado Department of Education. State of Charter Schools in 
Colorado. Colorado Department of Education 1999-2000, Denver: March, 
2001.
    Dirkswager, Edward J. (editor). Teachers as Owners. Lanham, 
Maryland: Scarecrow Press, Inc., 2002.
    Education Commission of the States, and Center for School Change. 
Charter Schools: What Are They Up To? Denver and Minneapolis: Education 
Commission of the States, and Center for School Change, August 1995.
    Furrer, Cheryl. Letter to Senator Ember Reichgott. St. Paul, 
Minnesota: Education Association, 1991.
    Greene, Jay, Forster, Greg, and Winters, Marcus A. Apples to 
Apples: An Evaluation of Charter Schools Serving General Populations. 
New York City: Manhattan Institute, 2003.
    Hernandez, Lawrence, conversation with author and site visit, 2004.
    Hoxby, Caroline. School Choice and School Competition: Evidence 
from the United States. Swedish Economic Policy Review, 10 (2003, pp. 
9-65).
    Legislative Analyst's Office. Assessing California's Charter 
Schools. Sacramento: 2004.
    Loveless, Tom. How Well Are American Students Learning? Washington, 
DC: Brookings Institution, October 2003.
    Matheson, Ken D. Speech at the Idaho School Administrators 
Conference, February 2, 1998 (summary available from Center for School 
Change).
    Nathan, Joe and Power, Jennifer. Policy-makers' views of the 
Charter School Movement. Minneapolis: Center for School Change, 
Humphrey Institute of Public Affairs, University of Minnesota, April 
1996.
    Minnesota Learning Resource Center. 2000-2001 Summary Report. 
Minneapolis: 2001.
    National Education Association. Letter to U.S. Senators from Debra 
DeLee, Director of Government Relations. Washington, DC. January 16, 
1992.
    Nathan, Joe. Charter Schools: Creating Hope and Opportunity in 
American Education. San Francisco: Jossey Bass, 1999.
    Ouchi, William. Making Schools Work. New York: Simon & Schuster, 
2003.
    An Attractive Alternative (editorial). Pueblo Chieftain, December 
29, 2003.
    Rofes, Eric, N.D. How are School Districts Responding to Charter 
Laws and Charter Schools? Berkeley: Graduate School of Education Policy 
Analysis for California Education.
    Solomon, Lewis, Garcia, David, Park, Kern. Does Charter School 
Attendance Improve Test Scores? The Arizona Results: Goldwater 
Institute, March 2001.
    Wellstone, Paul. Speech to Joint Session of Minnesota Legislature. 
February 17, 1997.
    Wingert, Pat and Kantrowitz, Barbara. At the Top of the Class. 
Newsweek, March 24, 2003.

    Senator DeWine. Thank you very much.
    Senator Landrieu.
    Senator Landrieu. I do have a couple of questions. I, first 
of all, appreciate the testimony of all of you, and 
particularly for the president of our school board to be so 
open to these new ideas and to be supportive of this effort, as 
well as many other efforts underway for the improvement of 
District schools. I appreciate all of the work that you all are 
doing.
    I have a question about the screening issue, I think, 
President Cooper Cafritz, you brought up, because as we move 
forward the quality of our charter schools, I think, is very 
important, the ability to issue charters to groups that are 
most likely to succeed, although there are no guarantees, 
systems in place to recognize if that charter is moving in the 
right direction or the wrong direction pretty quickly, and to 
step in and have the wherewithal or the authority to close a 
school that is not meeting the expectations as initially 
established.
    Now, under the independent board, I think, Mr. Loughlin and 
Ms. Baker, you testified that one year you all received a 
number of applications and didn't charter any. I guess that 
decision was based on the fact that the quality of the charters 
presented to you didn't measure up to a criteria that you all 
had established.
    So my question is to you, Madam President. Do you all feel 
at the school board that you have got a tight enough screen to 
screen out those that are unlikely to succeed, or can that 
screen be tighter? Do you need us to help you tighten that or 
can you on your own, with the authority that you all have, 
tighten that screen, as well as trying to step in a little 
early if you sense that something is not working? Do you need 
us or can you do that with your current authority?
    Ms. Cooper Cafritz. Well, okay. First of all, in terms of 
chartering schools, I think that the Board has the authority 
not to charter schools, and it is not chartering schools that 
it doesn't feel should be chartered. But there are schools that 
have been chartered in the past, not just under us. I mean, as 
I said, three of the top five performing schools fall under our 
jurisdiction.
    But charter schools, in general--the first charter school 
amongst elementary schools is 19th when it comes to the 
percentage of kids who are proficient. And that is on grade 
level and that is only 70 percent. At high schools and junior 
high schools, they are performing worse than DCPS--the other 
charter school board as well as our charter schools.
    I brought this chart here for you to see. Some of them are 
improving, and you have to take into consideration the work 
that Maya Angelou does. A lot of its kids are court-
adjudicated. They have been in unstable situations, so you 
can't place the same kind of considerations, et cetera, and you 
have to be able to look at them individually.
    What we need to be able to do is we don't have the money to 
get audits. We clearly cannot depend on the city to provide 
that, and those are very important things. We have to be able 
to require that all of the teachers' FBI checks be filed in 
some central place. That is absolutely critical. There are 
mechanical things like that that can be done that we don't feel 
we have the authority to do and we need some assistance on.
    Senator Landrieu. We may be able to help you with that 
because, of course, we want to be supportive, but I just want 
to focus, though, on the screening issue. I believe the school 
board--and if you don't, tell me, but I believe the school 
board now has the authority that you all need to put as tight a 
screen as you want on new charters so that if people come to 
you----
    Ms. Cooper Cafritz. Oh, yes, and we are doing that. That is 
not the problem, that is absolutely not the problem.
    Senator Landrieu. You all are doing that now and doing it 
well.
    Ms. Cooper Cafritz. Oh, absolutely.
    Senator Landrieu. But what you are saying is, in the past, 
perhaps some charters were issued with not as tight a screen as 
could be placed, and so we have a situation potentially to deal 
with some of the charters that may not be living up to their 
expectations?
    Ms. Cooper Cafritz. Right, and these are not just charter 
schools under DCPS. You know, it is a serious problem.
    Senator Landrieu. Let me just ask, Ms. Baker, could you add 
something to that? Part of the process of this hearing is to 
get some facts, and this is very helpful because I think that 
screen is important in making sure that you all have the 
ability to put as tight a screen as possible, as well as 
stepping in when you think that a charter that you have given 
is not living up to the expectations that you all have set.
    But, Ms. Baker, could you respond?
    Ms. Baker. Yes. I think, first, talking about the 
background checks which we know are in need of improvement, we 
did have a meeting with the unit in DCPS to talk about getting 
the FBI checks which are more expensive. The local check just 
says, you know, has the person committed a crime of some kind 
in the District of Columbia. It doesn't give you anything 
broader than that.
    We are trying to move toward requiring a more intensive 
check of our existing schools, starting with the schools that 
come on because we know that that is a very important issue.
    Around the business of financial audits, while we do not 
audit our schools because that is something that they must do, 
we do have a consultant that actually checks every school's 
audit, and where they do not meet the standard, they are sent 
back. They are not approved until we get a high standard audit 
from every school. We get monthly financial reports which are 
also looked at by an accountant to be sure that our schools are 
moving in the right direction financially.
    So I agree that there are some areas in which we as a board 
or the board and staff could use a little more flexibility, 
having a little more authority to do what needs to be done. But 
we also walk that very thin beam of holding schools 
accountable, but also the whole charter concept of those 
schools having their autonomy.
    So there is always a balance that we try to make to be sure 
that they do indeed have that autonomy, but that we hold them 
accountable. And we do that through a process of looking at 
their records on a monthly basis, as I said, with the 
background checks, which we think is something that is very 
important, making sure that we move to another level. We have a 
couple of schools that do the FBI checks on their own.
    Senator Landrieu. Let me just ask a couple of things I need 
for the record. Do I understand that all charter schools are 
required to have a clean audit, or is there no requirement?
    Ms. Baker. They are supposed to have an audit. The law 
requires an audit. We insist that it be a clean audit, and 
actually the CFO a couple of years ago gave us a whole set of 
standards and criteria which we have passed on. And I believe 
at that time Linda McKay was the executive director.
    Senator Landrieu. So you are saying yes. But, Peggy, you 
say no. Okay, so one says yes and one says no, but the fact is 
that if the District wanted to have a certified and clean 
audit, you have the authority to do that. You don't need 
Congress to do that, I don't think.
    Ms. Cooper Cafritz. I think that we do need some assistance 
because I know that our charter school board does not have the 
funding. You have to have independent auditors and you need to 
have them on a rotating, cyclical basis, as you would in any 
agency that is expending public funds. It is not happening with 
schools on either side.
    But, again, the best schools have independent audits 
because that is the way you operate, but it is not happening 
regularly. The schools send in audits, but you wouldn't sign 
off on them.
    Senator Landrieu. The Chairman has been very gracious, but 
I have got to ask two questions, one that I had intended to ask 
and one that just came up. I want to clarify this for the 
record. I don't know if I heard this correctly.
    Did someone testify that teachers in the District of 
Columbia only require a criminal background check in the event 
that they might have committed a crime in the District, but had 
they committed a crime outside of the District, we don't check 
that? Did I hear that correctly?
    Ms. Cooper Cafritz. Teachers in District of Columbia public 
schools are required now to have an FBI check, as well as the 
local police check, and we assume that the FBI check delves 
into the rest of their background. But there are some teachers 
still in the system who had a local police check before the 
rules changed 2 years ago, but who are still in the system and 
who just had a local police check.
    In the case of the alleged child molester in one of our 
schools last week, he had been locally checked, but he hadn't 
had an FBI check, evidently, and had been in the school system 
prior to that. In the charter schools, it is handled by the 
charter schools. We want everyone to have an FBI check even if 
the applicant has to pay for it, even if that is the only way 
to afford it. But I think to protect our kids, charters and 
public schools, it is something we absolutely should require.
    Senator Landrieu. Well, let me just suggest from this 
moment forward I would go on record as saying no group should 
receive a charter to start a school unless everybody associated 
with that charter has had a full FBI background check, and then 
we can worry about how to clean up the current situation, and 
you all have that in your authority right now to do that.
    Mr. Chairman, one more thing on facilities and then I will 
reserve my questions for my second round.
    Since we have heard this constantly at every meeting, 
public and private, about facilities for the charter schools--
and we recognize it is a real challenge, but today we are 
giving approximately $2,000 per child, per charter, for 
facilities only, not operating. Let's assume 200 children per 
charter. I realize some charters have less, I realize some 
charters have more, but an average of 200 children. That works 
out to be, if my math is correct, $400,000 a year for 
facilities.
    Four hundred thousand dollars a year can bond a serious 
amount of money in terms of debt service. So a chartering 
entity presents an idea, assuming everyone has been background-
checked, great plan, great energy, and you want to give the 
charter. You give the charter. They have 200 kids. You get 
$400,000 a year.
    What is stopping them, because we would like to fix it, 
from going to a bank, laying down the charter, laying down the 
200 children and borrowing the money necessary either to buy a 
new facility, build a simple but functioning facility, or 
renovate an existing public building, assuming it has been 
given at a minimal, dollar-a-year kind of lease, use that money 
to renovate and find a home for themselves that works for 
themselves and the kids? What is stopping us from accomplishing 
that, because that is what we are trying to help you to get to?
    Mr. Loughlin. One of the key issues the schools face is 
building up some equity so that they can go out and leverage 
that amount of money. And the question is is there enough 
equity funding, credit enhancement funding, revolving loan 
funds, et cetera.
    Senator Landrieu. But you don't need to build equity. If 
you have a charter with 200 children and you have got $400,000 
a year guaranteed to come in, what is preventing a bank or an 
entity from loaning you money to buy or lease or renovate a 
building?
    And if we haven't, Mr. Chairman, we certainly can provide 
some sort of increased guarantee, but we have a revolving loan 
fund that is direct and indirect, and have increased it every 
year. So I am confused and I would like to not be confused at 
the end of this hearing.
    Mr. Loughlin. Well, as I understand it, the banks are 
reasonably conservative. So if you take a charter school that 
wants to engage in a $5 million project, the bank will say we 
will lend 80 percent of that, $4 million. The school is faced 
with raising the $1 million either through their own funds, 
through fundraising, or through some of the facilities that 
have been made available through this committee and through the 
city.
    Senator Landrieu. Well, I would like to receive some 
testimony from some of the bankers, not at this meeting, Mr. 
Chairman, but perhaps in writing. I realize that when you go to 
borrow money for a home, you usually put up 75 or 80 percent 
and you have to put up a down payment. But there is no reason 
that the banking community in the District of Columbia, 
particularly with the help of Congress and the school board and 
other authorities, can't establish a new and different way to 
lend money for the establishment of schools, which are not 
houses, you know, and they are not commercial businesses--they 
are an entity to themselves--100 percent financing based on a 
guaranteed stream of revenue.
    I know that is one problem I would like to correct for 
facilities, and the other--and I am not going to ask this 
question, but I will come back to what has been established 
within the District to free up public buildings, not just 
schools that are underutilized and empty, of which there are 
any number of the neighborhood that I live in, but other public 
buildings that the public has already paid for. Taxpayers have 
already paid for these buildings; no sense in not putting these 
buildings to good use, whether they were recreational centers 
or schools or libraries that are no longer functioning or any 
number of public buildings that could be used, with the proper 
renovation, of course, and proper environmental studies for a 
safe and adequate place for children.
    But I will come back to that. The chairman has been very 
gracious.
    Senator DeWine. Dr. Nathan, in your book you talk about 
this concept of shared facilities, which is a intriguing 
concept. Do you want to elaborate a little bit about this and 
tell us how this has worked in the District?
    Mr. Nathan. Yes, sir, Mr. Chairman. Actually, we have done 
this in cooperation with Knowledge Works Foundation in Ohio, in 
Cincinnati, which has been a very strong supporter of this 
effort. And you just heard some examples of what it is so 
important, first, because educators often say with considerable 
justification that working effectively with youngsters and 
families is a real challenge, and I agree.
    So one of the things that is happening, for example, in 
Cincinnati, is that there is a school that has partnered with 
the social service agency called Families Forward and they have 
provided free space in the school. And this is a school that 
has produced dramatic achievement gains, in part because they 
have additional assistance from the social service agency at no 
additional cost to the taxpayers.
    But we describe in here a number of examples. I mentioned 
the Mesa, Arizona, example. Senator Landrieu just referred to 
other public buildings. In many parts of the United States, 
there are buildings that are underutilized and this seems to me 
to be one of the central ideas----
    Senator DeWine. We have them all over the country.
    Mr. Nathan. Yes, sir.
    Senator DeWine. I mean, they are just all over the country, 
underutilized buildings and facilities.
    Mr. Nathan. Yes, sir, and just a brief comment. In 
transitioning from this question to Senator Landrieu's question 
about facilities, you are right to be frustrated. At the same 
time, we are working with a number of people who are starting 
new charter schools and you don't know when you come into the 
D.C. Charter Board or the Minnesota Charter Board or whatever 
how many kids you are going to have. You hope to have 200. So 
the central issue about facilities, in my opinion, is in the 
first year or two when you just don't know.
    So that is why, Mr. Chairman and Senator, your points about 
shared facilities, No. 1, and, No. 2, identifying public 
buildings that are underutilized, I think are absolutely right 
on, because we can have buildings that could be incubators. And 
for the first year or two, maybe two or three different schools 
and social service agencies could be sharing the space. So I 
think that these two issues come together precisely as you have 
suggested.
    Ms. Cooper Cafritz. Can I add something?
    Senator DeWine. Sure.
    Ms. Cooper Cafritz. People know that charters are there. 
They are sitting ducks, so you have the city's charter school 
investment fund. Take a school like Options, 178 kids. They own 
a facility for almost $500,000 a year, so Options comes to us 
and says, we have to expand in order to be able to afford the 
rent.
    All of these real estate agents know charters have to have 
space and they have to have it by tomorrow, so let's gouge them 
and charge them $500,000 or $600,000 a year. And then there is 
no way that they can leverage that amount of money they have 
coming in every year so that they can do a longer term.
    What we really need to push is charter school ownership of 
their facilities and stop the city, which is also holding old 
schools that could be given to charters which haven't been 
given to charters. So it is not just the school system; it is 
the city.
    Senator DeWine. Senator Landrieu.
    Senator Landrieu. To follow up on the facilities, do we 
have a comprehensive list of school buildings that are either 
controlled by the school board, or when you say there are 
buildings that the city controls, is it two different groups of 
buildings, some that are controlled by the city and evidently 
the school board gave them to the city?
    Ms. Cooper Cafritz. Under prior superintendents, a number 
of buildings were given back to the city because the schools 
said we no longer have use for them, and when schools are 
excess, they go back to the city.
    Senator Landrieu. How many are on that list? Does anybody 
know?
    Ms. Cooper Cafritz. There must still be about seven surplus 
buildings on that list.
    Ms. Baker. I don't think it is seven.
    Ms. Cooper Cafritz. But there is another building that we 
are keeping and sending to the charter school task force so 
that we can make sure that it goes to a charter school, because 
otherwise it wouldn't.
    Senator Landrieu. Does anybody have an idea--maybe, Ms. 
Baker, you could testify on this because it seems like we 
could--one of the great accomplishments of this hearing, Mr. 
Chairman, would be if we could explore with you all, the 
experts, a streamlined system for facilities. That might help 
not just the charter schools, but it might also help the 
traditional public schools, as well as the city as it struggles 
for redevelopment in some of these areas.
    As you know, public buildings, no matter what they are used 
for, whether it is a school or a new shopping center or some 
sort of new community center, can be catalysts for 
revitalization of an area. So it is in everyone's interest--the 
city, the schools, the community generally--for these buildings 
that are underutilized and vacant and sometimes quite a 
nuisance to the people who happen to live around them or the 
businesses that are trying to function around these buildings--
is there a way that you all have thought of that you could 
testify to this morning, and if not could you submit some of 
those ideas to us, because maybe we could help to create with 
the city a more streamlined process?
    Ms. Baker.
    Ms. Baker. I think that one of the concerns for the 
buildings--first of all, I don't think there are seven. I have 
been attending the meeting of the task force which was 
basically dealing with co-location. However, in the process, 
for instance, we now know that Bruce has been moved into the 
surplus of the mayor's list.
    However, the big problem for a number of these buildings is 
the amount of work that it will take to make the buildings 
habitable, millions of dollars in some instances. I understand 
that Bruce needs a new roof; it needs window repair. So it is 
not something that anyone can go into without millions of 
dollars being spent just to get it ready.
    So some of the buildings, while they are there now and are 
empty and are considered surplus, are going to take a 
considerable amount of money in order to make them habitable, 
which again is another problem that, yes, you have to go 
through the credit enhancement. And you can get some funding, 
but there is a considerable amount of money that will be needed 
for that. So that is another issue that is of great concern 
when you start talking about surplus buildings. They are not 
all just ready to step into.
    Senator Landrieu. And a mere $4.5 million or even 6 or 7 
million dollars won't do. Sometimes, it is a $20 million price 
tag, or sometimes more than that?
    Ms. Baker. I know that at the Thurgood Marshall Building 
out in Southeast, I understand, the actual costs are 
tremendous. They are going for it simply because that is an 
area that has great need and they have their eyes set there and 
they are going to do it. But in many instances, if you are 
talking about a school that is just starting, you are talking 
about that $400,000, but that $400,000 is not immediately 
available because a school has to pay a lease. It has got to 
pay rent when it starts up.
    When it is approved and it is getting ready to open, a bank 
is not as interested in--they want to see, yes, you are a new 
school, you are going to open, but let's see whether you know 
how to do this. So it is going to take a couple of years before 
a bank will say, yes, we----
    Senator Landrieu. We need to create venture capital 
funding. You create venture capital funding. I mean, investors 
look at a product that is not even on the market and say, we 
just look at the plan, we look at the inventor and we believe 
it is going to take off. And they lend the money and they put 
it down sometimes before the first product has been created.
    Ms. Baker. Well, they have been hesitant to do that with 
charters.
    Senator Landrieu. And then there is a mezzanine level of 
financing and then there is sort of an expansion level of 
financing, and it is the way the business community operates. 
We have got to figure out a way to develop that same sort of 
system within public schools. I am certain that it is existing 
somewhere because the movement has grown.
    Let me just stop--I don't want to take all the time, 
obviously--and go back. The chairman has some additional 
questions.
    Senator DeWine. Well, I am finished, actually, and I want 
to thank our panel. We do need to get to the other panel, but I 
want to thank you all very, very much. This has been very, very 
helpful and we have learned a lot this morning.
    Ms. Baker. We thank you.
STATEMENT OF DAVID DOMENICI, CO-FOUNDER, MAYA ANGELOU 
            PUBLIC CHARTER SCHOOL, WASHINGTON, DC
    Senator DeWine. Thank you.
    Let me ask our second panel to come up. I will introduce 
you as you are coming up.
    Mr. Eric Adler is the co-founder and managing director of 
the SEED School. Mr. Josh Kern is the president and CEO of the 
Thurgood Marshall Academy. Mr. David Domenici is the co-founder 
and executive director of the See Forever Foundation. Thank you 
all for joining us.
    Senator Landrieu. Mr. Chairman, as these gentlemen are 
taking their places, I just want to say a general thank you for 
the extraordinary work that each of you has done against great 
odds, and I think for all the right reasons, to create options 
and to strengthen our entire school system.
    I want to just restate for the record that while the focus 
here is on charter schools, I hope everyone in this room is 
here because we want to create a stronger public system of 
education in the Nation and recognize that charter schools are 
one of the tools, not the only tool, maybe not even the best 
tool, although this Senator thinks it is pretty good. It may be 
the best tool, but I am not 100 percent convinced, but a 
clearly a good tool to strengthen education options for 
children. So I just wanted to say that as you all begin.
    Senator DeWine. Very good.
    Well, we welcome our second panel. We thank you very much. 
We have your written statements which will be made a part of 
the record, and if you could keep your oral statements to 5 
minutes, then that will give us an opportunity to ask you some 
questions.
    Mr. Domenici, why don't we start with you.
    Mr. Domenici. Thank you for the opportunity to testify this 
morning. It is great to be with Eric and Josh. I think they are 
both going to talk a bit about the schools they work at and 
about what makes a successful school. I am going to talk a 
little bit less about these topics and instead focus on two 
items as briefly as I can: first, how and why we got started, 
and how I believe our purpose for starting remains relevant 
today, particularly as we celebrate the 50th anniversary of 
Brown v. Board of Education. Second, I want to just briefly 
touch upon the partnership that we recently announced us with 
DCPS that is going to enable us to collaboratively open a 
second campus.
    When James and I founded the school, we believed, and still 
do, that it is the public's moral responsibility to provide 
high-quality education to all students. It is a basic right. In 
1995, our background at the Public Defender's Service teaching, 
volunteering and working in city government led us to reach a 
brutal but honest, truthful fact that the promise of Brown and 
the promise of the civil rights movement was not happening here 
in the District of Columbia, at least not for our kids. Our 
kids were those who had been arrested, who had dropped out of 
school, who were on probation.
    So we started a pizza delivery restaurant that served as a 
job training program, and for 2 years worked as attorneys and 
pizza makers with a team of court-involved kids. We were 
desperate in a good sense, the best sense, for change, for hope 
and for the future.
    Almost immediately, we knew that we needed to work with 
students full-time during the day and really work on academics, 
because although making pizzas all night long was a lot better 
than being on the street, it wasn't going to be enough to help 
our kids develop the skills they needed to become the 
successful adults we knew they could be.
    So in 1997, we quit or jobs to start a school. That first 
year, we were not a charter; we were a free, alternative, non-
degree-granting program, like the freedom schools. We didn't 
have any public support, nor any stamp of approval. We did have 
a belief and a passion, and it was the public charter school 
law and the belief of Nelson Smith, Joe Baker and others 
involved in the public charter school start-up years that 
enabled us to transform a pizza restaurant and some ideas about 
how young people should be treated into a comprehensive school 
and youth development program.
    Today, we serve 100 students. We are very small. We are in 
school from 9:00 until 7:15 daily. All students participate in 
mandatory after-school classes, dinner, and an hour of one-on-
one tutoring nightly. Over 250 people volunteer at our school 
each week. We have comprehensive mental health services on-site 
with a psychologist and social worker. We have 15 students who 
live in our residential homes, thanks to the SEED School. We 
run two small student-based businesses so that all students 
have a chance to learn job skills and earn and save money as a 
part of their school day. We run a mandatory 6-week summer 
program for all kids.
    We do this because our kids need it and they deserve it, 
but we have to raise funding beyond our basic charter school 
support in order for us to provide these sorts of programs to 
our students--lots of it. It has been a huge investment, as 
have the efforts at SEED and Thurgood Marshall and many of the 
other public charter schools here.
    But it has been worth it. Almost 50 percent of our students 
now have special needs. Nearly that many report only marginally 
attending school before coming to us, and over 30 percent have 
had some prior involvement in the court system. At our school, 
they go from attending school 50 percent of the time to 90 
percent of the time. They improve their GPAs from a low D to 
about a B. They increase their SAT scores by over 15 percent, 
on average, and over 70 percent of them are now going on to 
college. But it is not that simple. Our kids' Stanford 9 scores 
are not improving, and we are struggling with that and we are 
trying to figure out how to address that.
    Our school, the SEED School and Thurgood Marshall aren't 
all the answer, even if we grow and expand. Today, our students 
and nearly all students attending public schools in the 
District of Columbia attend segregated, poor schools. In DCPS 
today, there are 2,455 students attending the 12th grade. Of 
those, 121 are white. Of those white students, 116 attend three 
schools--Wilson, School Without Walls and Duke Ellington. In 
fact, 88 of them attend Wilson. This means that 5 white 
students attend all the rest of the public high schools in the 
District of Columbia.
    The numbers in the public charter schools would be just the 
same. There are no white students at Oak Hill, and there never 
have been in the 6 years since I have been working in the city. 
Participation in public education along class lines would 
mirror these statistics almost identically.
    You asked us to come here and talk about best practices, 
but let's be honest. We are talking about best practices within 
a system that has been abandoned by whites and abandoned by 
upper-and middle-class blacks. Some good charters with 
incredibly dedicated staff like ours will not fix this system, 
not alone at least. We may be able to offer an ever-expanding 
network of good schools and we may be able to bring in 
resources that the traditional schools cannot.
    We can bring innovation, the sort you are hearing about 
today, and we can push and nudge the larger system toward new 
ideas through basic, good old competition. But the public 
system here in the District of Columbia is a segregated system 
for poor, mostly isolated young people of color. That is true 
of charters and that is true of traditional public schools. 
That is tragic and it is tolerable, and no one seems to want to 
talk about that or what this public disengagement has cost our 
kids and our city. Our school is about reengagement and 
reinvestment, and that is costly personally and fiscally. It is 
about not letting our schools become separate and unequal.
    The capital infrastructure of the schools in the District 
is crumbling, and we can talk about this in more details with 
questions. But you have to look at this honestly. What will it 
cost to create high-quality physical structures for the kids in 
the city? The private markets cannot do this alone in charters, 
DCPS spaces and everywhere else.
    The three of us at this table have raised millions of 
private sector dollars to support our school facilities needs, 
but that can't be the long-term systemwide solution. 
Municipalities build schools, but believe me, old school 
buildings in need of massive repair with some excess classrooms 
are not the full answer to our overall facilities problems--
part, but not all of it. It will require significant investment 
of public and private resources, but more so the 
acknowledgement by all of us that our kids, our District kids, 
deserve it, regardless of their race or background.
    The reality that we couldn't do this alone and that we 
needed to create some real momentum around change and 
innovation and improvement is what led us to want to partner 
with DCPS to open our second campus. The focus of the campus 
will be to primarily work with students who have attended some 
of the larger public high schools east of the Anacostia, who 
have had attendance problems, have stopped going to school, who 
have lots of trouble staying in and succeeding at school.
    If all goes well, in a couple of years this campus will be 
serving 150 teens who need the sort of programming and support 
we all believe in and provide. The success of the partnership 
will enable us to jointly open additional campuses, where we 
can again create learning environments where students who have 
not been successful in traditional public schools can grow and 
reach their potential.
    In the bigger picture, if we are successful, members of our 
staff will be working collaboratively with staff from 
traditional public schools and other charters, will learn from 
each other, will hold each other to high standards, will study 
together, and will grow together in service of our students. 
Together, we will create schools and create a movement here, 
the movement we have never seen in the District since the 1960s 
where folks like Eric and Josh and Donald Hense and Irasema 
Salcido and Kent Amos and Ariana from public charter schools 
and others can work with staff and the leadership of DCPS, the 
city and you all on Capitol Hill.
    We will create a system where parents will not have to 
tolerate the sort of inadequate education that children have 
been getting, because they will understand how to advocate for 
change and they will understand and have the strength to demand 
better of all of us. And we will collectively respond with 
options and real opportunities, which cost real big dollars.
    Our partnership with DCPS may look like just another 
facilities deal to many, but after 18 months of negotiation and 
months of delays, I can tell you that is not what it is to us. 
We could have bought and renovated a building in the time it 
has taken us to get this deal done. It is a part of our 
commitment to bring people together for our children and our 
future. It is part of our commitment to fulfill the mandate of 
Brown v. Board of Education.

                           PREPARED STATEMENT

    I understand you may have more specific questions about the 
partnership. I am available to answer them or answer any other 
questions you might have about our history, our school, our 
funding needs or our results.
    Thank you.
    [The statement follows:]
                  Prepared Statement of David Domenici
    Thank you for the opportunity to testify here this morning. My name 
is David Domenici, and I am the Co-founder, along with James Forman, 
Jr., of the Maya Angelou Public Charter School.
    It is great to be here with Eric Adler and Josh Kern, as well. I 
believe that they will each talk a bit about the schools they work at 
and more generally about what makes a successful school. I will talk a 
bit less about these topics, and instead focus on two items:
  --First, how and why we got started, and how I believe our purpose 
        for starting remains relevant today, particularly as we 
        celebrate the 50th anniversary of Brown v. Board of Education.
  --And second, the groundbreaking partnership that we recently 
        announced with DCPS, which will enable us to collaboratively 
        open a second campus this fall.
    James and I founded this school because we believed--and still do--
that it is the public's moral responsibility to provide a high quality 
education to all students. It is a basic right. In 1995, our combined 
background at the Public Defender's Service, teaching, working and 
volunteering with students in the District of Columbia, Philadelphia 
and New York, and working in city government, led us to reach the 
honest, hurtful truth: the promise of Brown, and the promise of the 
Civil Rights movement was not happening here in the District of 
Columbia--not for our kids, at least.
    Our kids were kids who had been arrested, who had dropped out of 
school, who were on probation. Kids in streets and in the wrong system, 
not the systems many of us believe can lead students to opportunity and 
success.
    So we started a pizza delivery restaurant and for 2 years we worked 
both as attorneys and pizza makers with a team of court-involved kids. 
We were desperate--in a good sense. For change, for hope, for the 
future. Almost immediately we knew we needed to work with students 
full-time, during the day, and to really work on academics, and that 
although making pizzas all night long was better than being on the 
street, it was not going to be enough to help our kids develop the 
skills they need to be successful adults.
    In 1997 we quit our jobs to start a school. That first year we were 
not a charter; we were a free, alternative, non-degree granting 
program. We did not have any public support; nor any stamp of approval. 
But we had a belief and a passion. And it is the public charter law, 
and the belief of Nelson Smith, Jo Baker, and Eunice Henderson, and 
David Mack and others involved early on with the Charter Board, that 
enabled us to transform a pizza restaurant and some ideas on how young 
people should be treated into a comprehensive school and youth 
development program.
    Today, our school serves 100 students. We are in school from 9 a.m. 
until 7:15 p.m. daily. All students participate in mandatory after-
school electives, dinner, and an hour of one-on-one tutoring nightly. 
Over 250 people volunteer at our school each week. We have 
comprehensive mental health services on site with a psychologist and 3 
social workers, we have 15 students who live in our residential homes, 
we run two small student-based businesses so that all students have a 
chance to learn job skills and earn and save money as a part of their 
school; and we run a mandatory 6-week summer program for all students. 
We do this because our students need it, and deserve it, and we have to 
raise funding beyond our basic charter support in order for us to 
provide these programs to our students--lots of it. It has been a huge 
investment, as have been the efforts at SEED and Thurgood Marshall and 
many public charters here.
    And it has been worth it. Our student population is now nearly 50 
percent students with special needs, nearly that many report only 
marginally attending school the year before coming to our school, and 
about 40 percent have had some prior involvement in the court 
(delinquency or abuse/neglect). At Maya Angelou they go from attending 
school 50 percent of the time to over 90 percent of the time; they 
improve their GPAs from a low D average to a B average; they increase 
their SAT scores by over 15 percent on average; and over 70 percent of 
them are now going on to college. They like school, appreciate the hard 
work of their teachers, and are committed to their future. The have 
hope and dreams.
    But our school, and the SEED school and Thurgood Marshall aren't 
the full answer--even if and when we grow and expand. Today our 
students, and nearly all students attending public schools in the 
District, attend segregated, poor schools. In DCPS today there are 
2,455 students attending the 12th grade. Of those, 121 are white, about 
1,900 are black and the rest are primarily Latino and Asian/Pacific 
Islander. Of the white students 116 attend three schools--Wilson, 
Without Walls, and Duke Ellington, with 88 of them at Wilson alone. The 
numbers in the public charters would be just the same. Participation in 
public education along class lines would mirror these statistics, as 
well.
    So we are talking about best practices within a system that has 
been abandoned by whites and abandoned by middle and upper class 
blacks. And some good charters with incredibly dedicated staff like we 
have will not fix this system--not alone. We may be able to offer an 
ever expanding network of good schools, and we may be able to bring in 
resources that the traditional public schools cannot for a host of 
reasons. We can bring innovation--the sort you are hearing about today. 
We can push and nudge the larger system toward new ideas and through 
good old basic competition.
    But the public system here in the District of Columbia is a 
segregated system for poor, mostly isolated, young people of color. 
This is true of charters and traditional public schools. And that is 
tragic and intolerable. And no one seems to want to talk about that. Or 
what this public disengagement has cost our children. Our school is 
about reengagement and reinvestment, and that's costly, in a lot of 
ways. The capital infrastructure of schools in the District is 
crumbling and no one wants to look honestly at what it will cost us to 
create high quality physical structures for kids in the city--in 
charters, in DCPS spaces, anywhere. The three schools at this table 
today have raised multiple millions of private sector dollars to 
support our school facilities needs, but that can't be the long-term 
system-wide solution. But believe me, old school buildings in need of 
massive repair with excess classrooms aren't the full answer to our 
overall facilities problems, either. Part yes, but not all of it. It 
will require significant investment of public and private resources.
    The reality that we couldn't do this alone and that we have to 
create some real momentum around change and innovation and improvement 
is what led us to want to partner with DCPS to open our second campus. 
The focus of the second campus will be to work primarily with students 
who have attended some of the larger public high schools east of the 
Anacostia River who have had attendance problems, have stopped going to 
school, or who are having lots of trouble staying in and succeeding at 
school. If all goes well, in a couple years, this campus will be 
serving 150 additional teens who need the sort of programming and 
supports that we believe in and provide. And if all goes well, the 
success of the partnership will enable us to jointly open other 
campuses where we can again create a learning environment where 
students who have not succeeded in traditional public schools can grow 
and reach their potential.
    In the bigger picture, though, if all goes well, members of our 
staff will be working collaboratively with staff from traditional 
public schools and other charters; we will learn from each other, we 
will hold each other to high standards; we will study together; and we 
will grow together in service of our students together. And we will 
together create schools and create a movement where folks like Eric and 
Josh and Donald Hense and Irasema Salcido and Kent Amos and Ariana 
Quinones--the new executive director our association--from public 
charter schools can work with staff and leadership from DCPS, and the 
city, and the Hill. We will create a system where parents will not have 
to tolerate the sort of totally inadequate educations their children 
have been getting, because they will understand how to advocate for 
change, they will have the strength to demand better of all of us, we 
will collectively respond with options and real opportunities--which 
cost real dollars.
    Our partnership with DCPS may look like just a facilities deal to 
many. But after 18 months of negotiations and months of delays, I can 
tell you that's not what it is to us--we could have bought and 
renovated a building given the amount of time it's taken. It is part of 
our commitment to bring people together for our children and their 
futures. It is a part of our commitment to fulfill the mandate of 
Brown.
    I understand members may have specific questions about our 
partnership. I am available for them, or questions about our history, 
our school, our funding needs, and our results. Thank you.

    Senator DeWine. Thank you very much. Mr. Adler.
STATEMENT OF ERIC S. ADLER, FOUNDER, SEED FOUNDATION, 
            WASHINGTON, DC
    Mr. Adler. Thank you. It is my pleasure to be here today. I 
want to thank the subcommittee and particularly the both of you 
for your support of charters in the District.
    I also want to say that I am in great company on this 
panel, and I appreciate you guys both for your accomplishments 
and your camaraderie.
    The SEED Foundation was established in 1997 by Rajiv 
Vinnakota and myself to build urban boarding schools that 
prepare children for college. We opened our first school, the 
SEED Public Charter School of Washington, DC, in 1998. As I 
speak to you, 305 students are living and learning on our 
campus in Southeast Washington.
    I am here today in my capacity as the founder of the 
school. But more than an educator, I am really a social 
entrepreneur. All three of us here, that is really what we are. 
In getting the school open, we had to do things like develop 
community support, advocate for amendments to law, raise lots 
and lots of private money, build four buildings, float bonds, 
hire staff. These are all entrepreneurial activities more than 
educational ones. To understand successful charter schools, we 
need to begin to see them less in the context of just education 
and more in the context of entrepreneurial businesses.
    The SEED School of Washington offers a comprehensive 
solution to previously intractable problems. For some children, 
only a 24-hour-a-day program can provide the security and 
stability they need. Our program meets all of our students' 
basic needs--food, clothing, shelter, supportive community, 
skills.
    Who are our students? They are, as Dave points out, 100 
percent of-color, 90 percent below the poverty line. Eighty-
eight percent have a single parent or no parent; 93 percent 
have no parent who went to college. They enter SEED's 7th grade 
about three grade levels behind in their major skills, on 
average.
    They are selected by lottery, not creaming. We believe that 
any child can go to top colleges, and so far in this year's 
senior class, our first graduating class ever, our students 
have earned acceptances to American University, Boston 
University, Cornell, Duke, George Washington, Georgetown, James 
Madison, NYU, the University of Pennsylvania, Princeton, 
Spelman College, Stanford and many others. In short, we were 
right. Inner-city students selected at random and starting an 
average of 3 years behind can be prepared for America's top 
colleges.
    We also have other indicators of student success, including 
what we think is an astounding 97 percent high school 
graduation rate for students who attend the SEED School, versus 
63 percent for the general population.
    I don't know that these early successes make me an expert 
on how to make charter schools work and I don't pretend to have 
broad expertise, but I do believe I know some of the factors 
that have been critical to SEED's success. In the interest of 
time, I am going to focus on just six issues.
    No. 1, development of a solid operating business. At SEED, 
we have the SEED Foundation, a separately incorporated 
501(c)(3) to manage fundraising, financing, campus development, 
PR and other business operations for the school. This allows 
the professional educators to focus on what they do best and 
make sure that the best functions are covered by professionals 
in those areas. A school is a large and complex business. A 
strong business foundation is required to sustain a great 
educational program.
    Issue No. 2: facilities. Much has been said about 
facilities. I don't want to spend a lot of time on it in the 
opening statement, but I do want to make reference to a couple 
of things that Congress can do. One is support charter hubs or 
incubators where fledgling charter schools can open and share 
space as tenants.
    The second is to create and fund a quasi-public agency to 
manage facilities for all public schools in the District. This 
could improve vastly the condition of DCPS facilities, could 
allow DCPS to trade unused space for operating funds, and could 
virtually eliminate the lack of facilities available to charter 
schools that threatens the movement. I will be happy to talk 
more about that idea under questioning.
    Issue No. 3: school size and culture. Making schools small 
is critical to SEED's success. The current SEED School in 
Washington is just 300 students spread over grades 7 through 
12. When we build future schools, we will always build them 
small enough that every teacher can know every student's name.
    We also spend time and energy in the SEED School on 
culture-building. We look to hire school leaders and teachers 
who understand how to build culture. We keep the student body 
small and we allow time and resources to put culture-building 
exercises into the school calendar. In the end, students will 
learn more from each other than from adults. We had better pay 
attention to what they are teaching each other.
    Issue No. 4: meeting the non-educational needs of students 
and families. We all know that many students are dealing with 
difficult issues in their lives, and so schools need to provide 
lots of wrap-around services, including psychological 
counseling, meals, recreational activities, supervised study 
halls, medical treatment. These all need to be available on 
campus. At SEED, we have taken this concept of wrap-around 
services to the extreme. Our students live with us on campus 
and, quite frankly, this is the single greatest reason for our 
success.
    Issue No. 5: entrepreneurialism. At SEED, we have worked 
hard to be entrepreneurial about gathering resources and 
allocating them wisely. I have already spoken to this issue 
earlier in my statement, so I won't dwell on it here.
    Issue No. 6: student assessment and promotion. At SEED, we 
have done away with social promotion. In order to be promoted 
into the next grade, students must pass through the gate into 
that grade by demonstrating proficiency on a range of academic 
skills tests. This is effective because it matches assessment 
to curriculum.

                           PREPARED STATEMENT

    In conclusion, I want to urge the subcommittee to continue 
to support charter schools in the District. There is real 
reason to believe that by increasing the number of public 
charter schools in the District of Columbia, we can 
dramatically improve public education. In my written statement 
for the record, I have listed seven reasons to believe that 
this really will make a difference.
    I thank the subcommittee for having me here today and I 
will, of course, be pleased to answer any questions.
    Senator DeWine. Mr. Adler, thank you very much.
    [The statement follows:]
                  Prepared Statement of Eric S. Adler
    It is my pleasure to be here today to discuss best practices in 
public charter schools. I hope that my statement and answers to 
questions will be useful to the subcommittee.
    I also want to say that I am in great company on this panel. It is 
an honor to be considered to be in the same group with these great, 
innovative school leaders and I appreciate their accomplishments and 
camaraderie.
    My organization, The SEED Foundation, was founded in 1997 by Rajiv 
Vinnakota and myself to establish urban boarding schools that prepare 
children, both academically and socially, for success in college and in 
the professional world beyond. The SEED Foundation opened its first 
school, The SEED Public Charter School of Washington, DC, in 1998, to 
provide urban children with an intensive college preparatory boarding 
education. The SEED School serves 305 students in grades 7 through 12 
whose challenging circumstances might otherwise prevent them from 
fulfilling their academic and social potential. As I speak to you, our 
students are living and learning on our campus in SE Washington, east 
of the Anacostia River.
    I am here today in my capacity as the founder of a school, but more 
than an educator I am really a Social Entrepreneur. When I look back 
over what has gone into developing the SEED School, it has had less to 
do with creating an educational program than with building a rather 
complex business. We have had to: Develop Community support, Get 
charter, Advocate for amendments to law to provide funding for boarding 
students, Raise private money, Control a site, Build the campus 
(175,000 sq feet of finished space), Finance the construction by 
floating bonds, Develop the program, Hire key staff, Recruit students, 
Recruit and manage the board, Oversee & support the institution, Manage 
PR.
    These are entrepreneurial activities, more than educational ones. 
Really, everyone on this panel is a social entrepreneur. We are all 
here today because we have been skillful and lucky enough to build 
businesses which are successfully delivering services to students and 
families. If we want to understand successful charter schools, we need 
to begin to see them less in the context of just education and more in 
the context of entrepreneurial businesses.
  the seed school of washington, dc offers a comprehensive, visionary 
   solution to previously intractable educational and social problems
    For some children, only a 24-hour-a-day school program can provide 
the security and stability they need to succeed. With the belief that 
an integrated program can accomplish more than services pieced together 
from day and after-school programs, The SEED School set out to provide 
its students with consistent, holistic services. The result is a 
boarding school program that provides a comprehensive solution for the 
challenges facing many inner-city youth. The School provides students 
with comfortable accommodations, three nutritious meals a day, 
opportunities for physical exercise, two school psychologists, college 
and career counselors and an elaborate network of support consisting of 
parents, teachers, boarding instructors, counselors and boarding 
community coordinators.
    Seventh-grade students commit to a 6-year college preparatory 
program. Students live in dormitories, benefiting from an integrated 
curriculum of academic, extracurricular and life skills. They take on 
mentoring roles, community service and personal responsibilities. 
Located in the community, the School increases parental involvement and 
reinforces the potential of the communities served. SEED fills a 
critical need in Washington, DC by providing economically disadvantaged 
urban children with the necessary educational and social resources to 
prepare for college and the world beyond.
    The program is structured 24 hours a day. More importantly, it 
meets all of our students' basic needs: food, clothing, shelter, 
supportive community, skills. It also meets all of their secondary 
needs: great special ed, psych services, parent resources. We have a 
great campus, more than 320 new, high speed, flat screen, networked and 
internet-enabled computers, an average class size of just 14 students, 
and a remarkably innovative 9th grade gate system which ensures that 
every student in our high school is actually prepared to undertake our 
rigorous college prep curriculum. And lastly, we offer our students 
lots of enrichment--student athletics, summer travel, and the chance to 
meet interesting speakers.
    Who are our students?
  --100 percent of color, 90 percent below poverty line (measured by 
        free breakfast & lunch), 88 percent have a single parent or no 
        parent, 93 percent have no parent who went to college, they 
        enter SEED's 7th grade about 3 grade levels behind.
  --Selected by lottery--not creaming. We believe that any child can go 
        to top colleges. So far, in this year's senior class, our first 
        graduating class ever, we have acceptances to the following 
        colleges: American University, Art Institute of Philadelphia, 
        Boston University, Charleston Southern, Clark Atlanta, Cornell 
        University, Duke University, Elizabeth City, Elizabethtown 
        College, George Washington University, Georgetown University, 
        Hiram College, James Madison University, Johnson & Wales, 
        Landmark College, Mary Baldwin, University of Maryland, 
        Maryland College of the Arts, Marymount, University of New 
        Orleans, New York University, Ohio Wesleyan, North Carolina 
        A&T, University of Pennsylvania, Princeton University, Spelman 
        College, Stanford University, Trinity College, Virginia State 
        University, Virginia Union, Xavier Ohio, Xavier Lousiana.
    In short, we were right. Inner city students, selected at random 
and starting an average of 3 grade levels behind can be prepared for 
America's top colleges by an intense college prep boarding school. We 
also have other indicators of student success, including improved 
standardized test scores, dramatic decreases in risky and anti-social 
behavior, an astounding 97 percent high school graduation rate for 
students who attend the SEED School, as compared to 63 percent for the 
general D.C. population.
    I don't know that these early successes make me an expert at how to 
make charter schools work, and I would not pretend to have sweeping 
expertise. But I do believe that I know some of the elements which have 
been important for our success at SEED, and I am pleased to have been 
asked to share them with you today. There are probably hundreds of 
issues which help determine the success or failure of a public charter 
school, but in the interest of time, I have chosen to focus on six 
issues which I think have been most critical to our success at SEED. 
Here are the most important issues as I see them:
        issue no. 1.--development of a solid operating business
    At SEED, we decided which are the core functions of an education 
institution, and tried to remove the burden of all the other functions. 
That is why the SEED Foundation, the parent organization which founded 
the SEED School, manages the fundraising, financing, campus 
development, PR, and certain business functions for the school, freeing 
up the professional educators to do what they do best. Furthermore, it 
allows us to have people with real expertise in the areas of business, 
finance, and real estate development take on these critically important 
functions and build a really robust business. A school, after all, is 
not merely a place which teaches children and, oh yes, handles a little 
bit of money, human resources, real estate, and the like. Rather, it is 
just the inverse. A school is a large and complex business whose 
product is the delivery of educational services. Only once a strong 
business operations foundation has been built can a great educational 
program be sustained.
                        issue no. 2.--facilities
    Everyone knows that facilities are a huge issue for public charter 
schools. Most charter schools cannot afford adequate facilities, and 
even if they could they tend to lack the expertise to acquire, develop, 
and manage and maintain a good campus. At SEED we have been very lucky 
that we have been able to acquire this expertise, and have had generous 
donors who have supported our campus development efforts. But most 
charters cannot do this, and it threatens the entire movement. There 
are several things which Congress can do to improve the situation:
  --Establish a revolving loan fund. This has been done, and it will 
        assist many charter schools in financing improvements to their 
        campuses.
  --Build charter hubs. These are buildings which include space divided 
        up by wing or by floor so that several fledgling charter 
        schools can rent space within them at the same time. Ideally, 
        hubs should have some common space, such as a cafeteria or 
        athletic facilities, which these new schools could share. 
        Charter hubs would ensure that new public charter schools with 
        good educational programs but little cash and business acumen--
        which describes most charter schools--would not be prevented 
        from opening by their inability to find, control, renovate, and 
        manage suitable space.
  --Create and fund a quasi-public agency to manage the planning, 
        financing, construction, and maintenance of facilities for all 
        public schools--both DCPS and public charters--in the District. 
        The creation of such an agency would be a most innovative and 
        important step forward in the revitalization of public 
        education in the District of Columbia. In addition to improving 
        the condition of DCPS facilities, the creation of such an 
        agency would have two other significant benefits: (1) It would 
        allow DCPS to trade unused space for operating funds; (2) It 
        would virtually eliminate the lack of facilities for charter 
        schools, which currently threatens to close or limit the 
        enrollments of most charters and makes impossible the dramatic 
        growth of the number of students in charter schools. This is 
        obviously a complex undertaking beyond my ability to describe 
        in a 5-minute statement, and I will be happy to discuss it in 
        greater detail during questioning.
                 issue no. 3.--school size and culture
    We believe that making schools small is critical to SEED's success. 
The current SEED School in Washington is just 300 students spread over 
grades 7 through 12. While future SEED schools may be slightly larger, 
we will always build them small enough that every teacher can know 
every student's name. Large schools almost never work, because they 
cannot produce the proper culture. Everybody in the school community 
must feel a personal connection to every other person in the school in 
order to really be able to use school culture to produce positive 
outcomes for students.
    We also spend time and energy in the SEED School on culture-
building. We are not producing education widgets, we are raising 
children. If we do not proactively build the community culture, then we 
will have Lord of the Flies. If you have not already done so, I urge 
you to read A Hope in the Unseen, a book by Pulitzer Prize-winning 
author Ron Suskind. In the book, he describes what it is like to try to 
be an academic student at Ballou High School in SE Washington, and the 
story is brutal. I am not blaming the teachers or administrators at 
Ballou for this. They didn't choose to pack thousands of students into 
the school. It was handed to them that way. Under those conditions, I 
cannot imagine how they can possibly produce a positive peer culture. 
At SEED, we look to hire school leaders and teachers who understand how 
to build positive school culture, we keep the student body small enough 
to make it possible, and we allow them the time and resources to build 
culture-building exercises into the school calendar. In the end, 
students will learn more from each other than from adults. We better 
pay attention to what they are teaching each other.
    issue no. 4.--meeting the non-educational needs of students and 
 families in order to make it possible for students to focus on school
    Too many students are dealing with difficult issues and lacking the 
most basic opportunities. Students who arrive at school hungry, or who 
have witnessed violence, or who do not have the opportunity to study or 
run around safely or play chess, need more than just an education. So 
all D.C. public schools--DCPS and public charters--need to provide lots 
of wrap-around services on campus. Psychological counseling, meals, 
opportunities to engage in recreational activities and sports 
(especially for untalented athletes), supervised study halls, and 
medical treatment all should be available at school. We have worked 
hard at SEED to form relationships with agencies which can help provide 
these services on our campus, and have raised money above and beyond 
our charter dollars to provide many of them directly.
    At SEED, we have taken this concept of wrap-around services to the 
extreme. We know that students who arrive at school hungry or dirty or 
in unwashed clothes are unlikely to learn, and will almost surely 
distract students around them. Children who are abused at home, or 
whose siblings or mothers are abused, or who worry that they may be 
beaten up on the way home from school, or who have no quiet place to 
study, or whose moms have drug problems are not going to do well in 
school so long as they are going home to chaos every night. So our 
students live with us on campus. And quite frankly, this is the single 
greatest reason for our success. The marginal $14,000/student/year cost 
is tiny compared to the societal cost savings from the bad outcomes 
which may be prevented. For example, of the 40 students who started at 
SEED our first year, 39 are still in school. Statistically, we should 
have expected 20 of them to drop out. The societal net present cost of 
a dropout--in terms of lost taxes, increased services required, etc.--
is about $500,000. So the day our first students graduate next month, 
we will have saved the taxpayers millions of dollars, even after taking 
into account the increased cost of our program. And that is before we 
even start counting the societal benefits of sending nearly all of our 
students on to college, or of avoiding many of the other statistically 
prevalent bad outcomes, such as teen pregnancy or drug use.
    Parental involvement generally correlates with good student 
outcomes. At SEED we have a parent liaison person who knows every 
parent by name, keeps track of families as they move and have their 
phones disconnected, knows what is happening with family members, and 
maintains active relationships with families. We also offer parents 
resources on campus through our parent resource center, which provides 
workshops in literacy, job, and parenting skills, gives parents access 
to computers and the internet, and works with families to manage and 
avoid major problems, such as eviction or drug addiction. Thus, the 
school becomes a resource for the whole family, not just a place to go 
when your child is in trouble or some teacher is disrespecting your 
child. We also ``require'' parents to volunteer on campus each month so 
that their children see them involved, the parents know and trust the 
folks at school, and they become a partner.
                    issue no. 5.--entrepreneurialism
    At SEED, we have worked hard to be entrepreneurial about gathering 
resources and allocating them wisely. I have already spoken to this 
issue earlier in my statement, so I won't dwell on it here, except to 
reiterate that the public charter schools which are most effective at 
achieving great student outcomes are those which are most enterprising 
and entrepreneurial about gathering, allocating, and managing their 
resources.
             issue no. 6.--student assessment and promotion
    At SEED, we have done away with social promotion. It wasn't easy, 
because our families want to see their children move through the grades 
from year to year. But if a SEED education is to be effective, students 
must be held accountable for learning skills.
    We have not found the Stanford-9 to be a terribly useful tool. So, 
while we use it, we also have a much more important assessment tool 
which we call ``gates.'' In order to be promoted into the next grade, 
students must pass through the ``gate'' into that grade, by 
demonstrating proficiency at a range of academic skills. Rather than 
having one high-stakes exam at the end of the year, teachers administer 
gate tests every few weeks. At the end of the year, students have 
compiled a portfolio of exams demonstrating proficiency in all their 
subjects. This is effective because it matches assessment to 
curriculum. Our gate system is also a particularly effective way of 
dealing with students who have been poorly served in the lower grades 
and are arriving at SEED behind, but who need to be caught up in order 
to enter our college prep high school program.
                               conclusion
    I want to urge the subcommittee to continue to support charter 
schools in the District of Columbia. There is real reason to believe 
that by increasing the number of public charter schools in the District 
of Columbia we can dramatically improve public education. In the past 
few years, 15 percent of students have moved out of DCPS and into 
charters. There are several reasons to believe that this holds 
important advantages for public education in the District of Columbia:
  --While some charters are weak, some are not. Some of those students 
        have been transferred to genuinely good charter schools.
  --Charter schools tend to be small. So even if the school isn't very 
        good, at least students know that their teachers know them and 
        are watching. Furthermore, these smaller schools tend to focus 
        more on culture and wrap-around services, making it more likely 
        that students will find themselves in an environment where they 
        can focus on learning rather than other life problems.
  --Charter schools are not subject to the hiring restrictions which 
        affect DCPS. This allows greater flexibility for public charter 
        schools to hire in the same manner as independent or private 
        schools.
  --Charter schools are in a much stronger position to raise private 
        money than are the traditional public schools. These privately 
        raised funds are very important.
  --Because they are small but have a board about the same size as the 
        elected Board of Education, charters generally receive much 
        greater oversight than DCPS schools possibly could. What's 
        more, many charter schools are created by highly mission-driven 
        founders who feel like they ``own'' the place. The upshot of 
        all this is that, even if a charter school is bad today, the 
        odds are fairly good that this small, closely overseen, 
        mission-driven institution will be able to fix itself over a 
        period of 5 to 10 years. In essence, what you get with charters 
        is a larger group of people paying attention to a smaller 
        institution.
  --By moving students out of DCPS and into charters, you decrease the 
        number of students making up the big ship which has to be 
        turned around. Somewhere, we reach a tipping point where the 
        system becomes easier to manipulate and improve. We all want to 
        see DCPS succeed, and by making them a more compact operation 
        we increase the likelihood of that.
  --Because DCPS schools generally receive students by geographic 
        proximity whereas public charter schools must go out and 
        actively get families to choose them, charter school families 
        by definition must be at least passably happy with the choice 
        they are making in order to stay. This means that charter 
        schools are developing the skill of parent satisfaction, where 
        traditional public schools are less inclined to be able to do 
        so. This must make it easier to involve parents in the school, 
        which we know is good for student outcomes.
    I want to thank the subcommittee for having me here today, and I 
will be pleased to answer any questions you may have.
STATEMENT OF JOSHUA KERN, CO-FOUNDER AND PRESIDENT, 
            THURGOOD MARSHALL ACADEMY, WASHINGTON, DC
    Senator DeWine. Mr. Kern.
    Mr. Kern. Thank you, Chairman DeWine. Thank you, Senator 
Landrieu. Thank you for your leadership on this issue, and 
thank you, Senator Landrieu, for your support of our school.
    I have some thoughts about some of the issues that came up 
in your previous panel's questioning about background checks 
and about facility financing. But if you don't mind, I would 
like to reserve those for the questions and answers so I can 
have an opportunity to read my statement.
    Senator DeWine. Sure.
    Mr. Kern. Thank you.
    It is an honor to speak to distinguished leaders on this 
topic so close to my heart. It is also an honor to be here on 
this panel with Eric Adler and David Domenici, who are heads of 
two outstanding charter schools in the District of Columbia, 
the SEED School and Maya Angelou, respectively.
    Although each charter school is unique, there are common 
threads among the highest-performing charter schools, and 
indeed excellent schools in general, that we now recognize as 
best practices. These best practices include hiring a talented 
principal who effectively supports teachers, employing teachers 
who are masters at their craft, implementing an innovative 
standards-based curriculum that meets students where they are, 
encouraging strong parental involvement in all aspects of the 
school, and building a network of relationships within the 
community by reaching out to families, businesses, institutions 
of higher education, non-profit organizations and other 
schools. These are but a few of the ingredients essential to 
creating an effective school.
    However, there is one best practice that successful charter 
schools employ that traditional public schools rarely use, an 
approach that lies at the heart of charter schools' success and 
I think an approach that you heard David and Eric speak quite 
profoundly about, and that is creating a model that effectively 
educates students from high-poverty backgrounds.
    Students from high-poverty backgrounds arrive at our 
schools with both inspiring potential and an imposing range of 
deficits and disadvantages. These often include unmet emotional 
needs, a dearth of positive role models, a lack of basic 
resources outside of school, a stressful home environment that 
is not conducive to studying, and parents who lack time and 
resources to support their children's education. In addition, 
unlike their peers from higher-income backgrounds, our students 
have not been afforded the wide range of experiences that would 
help them shape their hopes, dreams and aspirations.
    As is the case with my colleagues' schools, what makes 
Thurmond Marshall Academy successful is that we implement a 
model that addresses all our students' needs. We provide a wide 
range of programs that go far above and beyond those usually 
available at urban public schools. In effect, we function both 
as a school and a non-profit youth development organization.
    We carefully integrate a rigorous college preparatory 
academic curriculum with specialized services, including but 
not limited to an extended school day that runs from 8:00 a.m. 
to 6:00 p.m. daily, after-school academic tutoring, 
personalized mentoring--every student at our school has an 
individual mentor--Saturday programming, high-caliber college 
guidance activities, a full-time on-site clinical counselor, 
and a mandatory 5-week summer program that prepares incoming 
9th graders for high school academic and behavioral 
expectations. Only through this full-service approach can we 
achieve our ambitious mission to prepare students to succeed in 
college and to actively engage in our democratic society.
    Clearly, though, addressing the wide range of needs that 
students from high-poverty backgrounds face through this multi-
faceted approach requires extraordinary financial and human 
resources. Although there are ways that public monies can be 
used more effectively, we shouldn't overlook the fact that 
funding for public education on the whole is not sufficient to 
meet all the needs of impoverished students.
    As a result, each of our schools raise a significant amount 
of additional resources each year to maintain the full 
complement of programming that truly impacts our students. 
Thurgood Marshall Academy raises approximately $4,000 per 
student each year to supplement guaranteed funding.
    Finally, successful public charter schools have attracted 
and motivated individuals, foundations and companies with vast 
resources to reenter the world of public education, from which 
they have long been absent. I think it is actually one of the 
most exciting things that the charter school movement has done 
in the District of Columbia.
    We have observed firsthand that when an effective model is 
created, the community at large is willing to invest the 
necessary time and money to make schools work. Yet, raising 
these resources is not easy. In fact, leaders spend much of our 
time working to attract the financial and human resources 
necessary to sustaining our institutions.

                           PREPARED STATEMENT

    This is an exciting time for Thurgood Marshall Academy. 
Next year, we will graduate our first class and we expect all 
these students to matriculate to and succeed in college. 
Additionally, Thurgood Marshall Academy will move into its new 
home, the now-derelict Nichols Avenue School building across 
from the Anacostia Metro station. This $10 million renovation 
of a cornerstone property at the gateway to historic Anacostia 
speaks to the capacity and impact of high-performing charter 
schools on their students and their community.
    This concludes my remarks. Thank you for your past support 
of our efforts and for the opportunity to speak with you today.
    [The statement follows:]
                   Prepared Statement of Joshua Kern
    Thank you for the opportunity to speak with you today. My name is 
Joshua Kern, and I am the Co-founder and President of Thurgood Marshall 
Academy Public Charter High School, a law-related charter school in 
Southeast Washington, DC. It is an honor to speak to distinguished 
leaders on a topic so close to my heart. I'm honored, as well, to be 
here with Eric Adler and David Domenici, heads of two other outstanding 
charter schools, The SEED School and Maya Angelou, respectively.
    Although each charter school is unique, there are common threads 
among the highest performing charter schools (and, indeed, excellent 
schools in general) that we now recognize as ``best practices.'' These 
best practices include: hiring a talented principal who effectively 
supports teachers; employing teachers who are masters at their craft; 
implementing an innovative, standards-based curriculum that meets 
students where they are; encouraging strong parental involvement in all 
aspects of the school; and building a network of relationships within 
the community by reaching out to families, businesses, institutions of 
higher education, nonprofit organizations, and other schools. These are 
but a few of the ingredients essential to creating an effective school.
    However, there is one best practice that successful charter schools 
employ that traditional public schools rarely use--an approach that 
lies at the heart of charter schools' success--namely, creating a model 
that effectively educates students from high-poverty backgrounds.
    Students from high poverty backgrounds arrive at our schools with 
both inspiring potential, and an imposing range of deficits and 
disadvantages. These often include: unmet emotional needs, a dearth of 
positive role models, a lack of basic resources outside of school, a 
stressful home environment that is not conducive to studying, and 
parents who lack time and resources to support their children's 
education. In addition, unlike their peers from higher-income 
backgrounds, our students have not been afforded the wide range of 
experiences that would help them shape their hopes, dreams, and 
aspirations.
    As is the case at my colleagues' schools, what makes Thurgood 
Marshall Academy successful is that we implement a model that addresses 
all our students' needs. We provide a wide range of programs that go 
far ``above and beyond'' those usually available at urban public 
schools. In effect, we function both as a school and a non-profit youth 
development organization. We carefully integrate a rigorous, college-
preparatory academic curriculum with specialized services including, 
but not limited to: an extended school day that runs from 8 a.m. to 6 
p.m.; after-school academic tutoring; personalized mentoring; Saturday 
programming; high-caliber college guidance activities; a full-time, on-
site clinical counselor; and a mandatory 5-week summer program that 
prepares incoming 9th-graders for high school academic and behavioral 
expectations. Only through this full-service approach can we achieve 
our ambitious mission to prepare students to succeed in college and to 
actively engage in our democratic society.
    Clearly, though, addressing the wide range of needs that students 
from high-poverty backgrounds face, through this multi-faceted 
approach, requires extraordinary financial and human resources. 
Although there are ways that public monies can be used more 
effectively, we shouldn't overlook the fact that funding for public 
education on the whole is not sufficient to meet all the needs of 
impoverished students. As a result, each of our schools raises a 
significant amount of additional resources each year to maintain the 
full complement of programming that truly impacts our students--
Thurgood Marshall Academy raises approximately $4,000 per student each 
year to supplement guaranteed funding.
    Finally, successful public charter schools have attracted and 
motivated individuals, foundations, and companies with vast resources 
to re-enter the world of public education, from which they have long 
been absent. We have observed first-hand that, when an effective model 
is created, the community at large is willing to invest the necessary 
time and money to make schools work. Yet, raising these resources is 
not easy--in fact, we leaders spend much of our time working to attract 
the financial and human resources necessary to sustaining our 
institutions.
    This is an exciting time for Thurgood Marshall Academy. Next year, 
we will graduate our first class, and we expect that all of these 
students will matriculate to and succeed in college. Additionally, 
Thurgood Marshall Academy will move into its new home, the now derelict 
Nichols Avenue School building, across from the Anacostia Metro 
Station. This $10 million renovation of a cornerstone property at the 
gateway to historic Anacostia speaks to the capacity and impact of high 
performing charter schools on their students and their community.
    This concludes my remarks. Thank you for your past support of our 
efforts and for the opportunity to speak with you today.

    Senator DeWine. Mr. Kern, thank you very much. Senator 
Landrieu.
    Senator Landrieu. Thank you all. As I said as you all sat 
down, I again just congratulate you for your really 
extraordinary, extraordinary efforts. I thank you for your 
leadership sincerely and, Mr. Domenici, particularly for your 
remarks seeming a little bit tense, and appropriately so, but 
to let you know and to give you encouragement that the work 
that you have done is, in fact, accomplishing what I think you 
want to accomplish, which is to challenge the current system, 
to ask the right questions, and by setting the great model that 
you have set has brought us in large measure to this point 
today not just in the District, but all around the country, 
showing a better way and providing hope that a public system, 
but a different kind of public system that encourages 
entrepreneurship, that pushes the envelope, that challenges the 
very debilitating notion that a large group of children just 
can't learn and can't succeed, is thinking out of the box and 
shattering these notions. So I really do want to thank all of 
you for what you are doing.
    I do sense some frustration, which I sense also here in 
myself sometimes. It is just not moving quickly enough for all 
of us, and so part of this meeting today is to grasp what is 
working so that we can attempt as leaders, with the leaders in 
the District, to scale it up. It is all about scaling it up. It 
may be working for a few hundred children or a few thousand 
children. We need to quickly get it working for millions of 
children in the country.
    None of what we are doing is easy. If it was, it would have 
been done 150 years ago or 200 years ago or 50 years ago. But 
you all are showing us the way and I want you to be encouraged, 
which is why, if anyone asks, which I often get--why do you 
fund the SEED School, why do you directly fund Thurgood 
Marshall, why are you giving special attention to Mr. 
Domenici's school--I would like to answer that publicly.
    I give support to Thurgood Marshall and SEED, and so does 
the chairman, and attention and support to Mr. Domenici's 
school because what you are doing is pretty terrific and it is 
working and it is showing us the way. And if we can do it for 
this number of kids, it is my hope that as you continue to 
provide competition to the public school system and the private 
school system, I might add, good competition and good role 
models, we will all get better in the process.
    My question that I want each of you to answer, if you 
would, to the best of your knowledge--and I understand that the 
SEED School is a little different because you are full 
residential, so your costs are obviously going to be much 
different than schools that have even extended hours, as you 
do, Mr. Domenici, and also Mr. Kern.
    I am sure your foundation board has to try to get close 
because you go ask for money in the private sector. How much is 
it costing you to educate, not feed and not house, but to 
basically educate with wrap-around services the children and 
the population that you are serving? And if you could try to 
hit an average within $1,000 or $1,500, I would appreciate it.
    Mr. Domenici.
    Mr. Domenici. Twenty-plus thousand dollars a year.
    Senator Landrieu. Twenty-plus a year.
    Mr. Kern.
    Mr. Kern. Fourteen thousand a year, although we could 
certainly spend $20,000 a year.
    Senator Landrieu. Mr. Adler.
    Mr. Adler. Well, as you point out, this is a very difficult 
question for us because we do house them and so I am not sure 
which of the wrap-around services I would include in our 
residential program and which I wouldn't.
    Senator Landrieu. Then don't give a number today, but could 
you look at that for us and submit it for the record because I 
think it is very helpful in this debate? And if you want to 
give an average, qualifying, and then submit something----
    Mr. Adler. I certainly think that if you took the costs of 
providing our residential faculty, our residential program--I 
assume dinner you would leave in there; you included dinner in 
that--I would be probably right in this range, in the $18,000, 
$19,000-a-student range, and then on top of that we have got 
housing costs.
    Senator Landrieu. I think that is important to note. Now, 
you know, people could debate these numbers, but I will tell 
you from my political experience with the majority of 
independent, non-parochial public schools, the average of 
tuitions is about $15,000 to $20,000. There might be some that 
are more expensive than that, but I think $15,000 to $22,000.
    In parochial schools, where the tuition may only be $3,500 
or $5,000 or $6,000, that tuition is subsidized pretty heavily 
by the church, which, of course, is their mission in the 
Catholic Church. Both of us being Catholic and having both 
attended Catholic school, and our children having attended 
Catholic schools, know about Catholic schools and the subsidy 
that occurs.
    But for people to argue that you can accomplish what you 
all are accomplishing for $5,000 a year or $6,000 a year or 
$7,000 a year, which is the reality in most school districts 
around the country, is a hopeless case before you even start.
    So I know money is not everything, but it is something, and 
something pretty important when it comes to educating children 
and providing the kind of quality education that our 
Constitution implies that they have a right to receive and we 
have an obligation to provide.
    It is not going to be accomplished by $5,000 and $6,000 and 
$7,000 and by scholarships at $7,500. Although it is better 
than $3,000, it is not where it is, and one of the big issues 
is this fairness in financing and to really become honest with 
the financing of our system, as well as the management, 
governance and thinking outside of the box about being 
creative.
    My next question to you, Mr. Domenici, is you said, quote, 
``We could have found, built and structured a building faster 
than the 18 months it took us to get a new facility.'' And I 
know that everybody has been as cooperative as possible with 
you; I hope they have because you most certainly deserve our 
full cooperation.
    Would you mind for the record saying a few things about why 
it took you 18 months, even after you have proven a successful 
strategy? And what would you say to us to help reduce that time 
next time someone tries from 18 months to perhaps down to 3 
months? What could you recommend?
    Mr. Domenici. Well, I think the good news is someone had to 
go first.
    Senator Landrieu. Thank you for going first and for being 
the pioneer.
    Mr. Domenici. So I don't think it will be 18 months next 
time around.
    Very briefly, this is a real complicated process. 
Particularly, I think, in disenfranchised communities, public 
schools are really, really something particularly dear, and 
whether they are vacant or not, they are particularly dear, 
particularly in communities where that is the one thing left 
standing in their neighborhood. So a lot of the conversations 
here about just finding space and putting kids there is not 
nearly as easy as it seems, because that space is a precious 
commodity and that place and the ownership of it is unique.
    Briefly, this can be done more quickly. You have got to get 
the right community members at the table from the get-go. You 
have to have community members as a part of the process and who 
want to be a part of the process for change. You have to have 
everybody involved in that discussion. You have to make sure 
that the right people on the DCPS side of the table are with 
you.
    It has been a very, very difficult political train in the 
city the last year. So when you are trying to work a very, very 
thoughtful, open process like this, the truth is you have got 
so many people you have got to negotiate with at different 
places that the one thing you end up not doing is being able to 
have an open, forthright negotiation with all the parties 
involved, because that is the one thing you can't do. And then 
by not doing that, you end up with a lot of information on the 
back end and just a lot of difficulty navigating the politics.
    I wish I could be more clear, but I will do my best after 
this to see if I can write some very, very brief bullet points 
for folks. But I think it can be done now. It takes a lot of 
clarity of purpose, I think, on the part of both DCPS from the 
board side and from the superintendent's office to make this 
happen, and it takes a lot of clarity from local community 
groups and whoever is working on the school side to commit to 
working collaboratively to get these things done. It will 
happen a lot more quickly next time, I am quite sure.
    Senator Landrieu. Does anybody else want to add? Mr. Kern, 
I think you all just purchased or entered into an agreement for 
the Nichols School?
    Mr. Kern. We are about to purchase it hopefully in July. 
But if I could just add one thing--I think that Dave and I 
share this experience in common--it seems as though you have to 
receive the blessings of a lot of different people and 
organizations in order to move forward on this.
    I think one thing that you might be able to help with is 
streamlining the process so that you don't need to go to so 
many different people and so many different organizations in 
order to get the concept and then the disposition agreement 
approved. Thurgood Marshall Academy, as you know, has been 
working for over 3 years to acquire the Nichols building and we 
are just finally now at the doorstep of doing so.
    Senator Landrieu. One thing in conclusion to this--and I 
have so many questions, but I know the chairman has some 
additional ones as well. We are vigorously pursuing this 
incubator concept and we want to work with the mayor's office, 
which has given tremendous leadership, the council and the 
school board, who are all very interested.
    While there are some advantages of an incubator, obviously, 
and something that I think with a fairly reasonable amount of 
money we could accomplish, part of the goal of a school is to 
service the neighborhood and the community that it is in. So 
the one disadvantage of an incubator is it is at one location 
in a region or a place, giving the schools the ability to start 
up. But the nature of it is that they wouldn't grow in that 
spot. They would then be placed around in different parts of 
the city.
    So while an incubator is clearly something that obviously 
we need, I just want to not leave this hearing thinking it is 
the solution to our facilities and space problems because it 
may work in some cases, but it may not when you want to start 
and establish in a neighborhood and not move the children 
around from one part of the city to another, or the teachers or 
educators or support group for that matter.
    Mr. Chairman, thank you.
    Senator DeWine. Senator Landrieu, thank you very much.
    Mr. Domenici, Mr. Adler and Mr. Kern, let me thank you for 
your testimony. When we look at the problems in this country, I 
don't know that there is anything more challenging or more 
important than what is going on in our cities as far as 
education.
    We are focusing today on the District of Columbia. We could 
be focusing on Cleveland or Dayton or Columbus or any other 
city. We just happen to be in the District of Columbia and this 
happens to be a subcommittee that has jurisdiction over the 
District of Columbia. And we could debate whether it is worse 
here or more challenging here, but the point is urban education 
is a huge challenge to this country and what is going on with 
our young people.
    What the three of you are doing is just very exciting, and 
I think you can tell that Senator Landrieu and I are both very 
excited about it. This subcommittee has tried to be supportive 
of what the three of you are doing. We intend to continue to be 
supportive of what you are doing, and not just in words but 
with money. So we are going to continue to do that in a small 
way, but you are the ones who are out there doing it and we 
appreciate it very much.
    Mr. Domenici, I was intrigued by your testimony. You have 
taken it from a bigger picture, I guess, and I am interested in 
your comments in relation to Brown v. Board of Education. You 
have, I guess, kind of challenged all of us to look at this 
from the big picture and given some statistics which we should 
be familiar with, but you have drawn us back to these figures.
    I am interested in your statement about your partnership 
with the public schools. You say that this is not just a 
building deal, really; it is more than that. I wonder if you 
can elaborate on that.
    Mr. Domenici. Yes, sir. If it was just a building deal, we 
would be paying more rent. It is not a building deal because 
the goal here was to work collaboratively with the four large 
high schools east of the river, traditional public high schools 
east of the river, and to work proactively with their guidance 
staff, their school leadership and other community agencies on 
the ground to start identifying young people who are dropping 
out of school, who are close to dropping out of school, who are 
getting kicked out everyday, the sort of young people that we 
are reading about at Ballou recently, and identify them before 
something totally tragic happens and just try to encourage them 
and the people who are working with them to think about going 
to another school, and to make that school be a place where 
they might want to go, not a place like the Choice Academy or 
other alternative schools, where ultimately you will be forced 
to go if enough things go badly.
    So people are asking us, what is this partnership? Isn't it 
just a building that you are getting for a little below market? 
No. What it is is it is a commitment for our staff to work with 
the staffs of four schools so that we, this small school, can 
be a part of a network of high schools east of the river that 
can really try to address the needs of students.
    Hopefully, we will be ultimately working with the SEED 
School and Thurgood Marshall School and Anacostia and Ballou, 
and there won't be any radical difference in that. We will all 
be working together saying what do the teenagers need east of 
the river and how can we help them to get into whichever one of 
these schools makes the most sense and not have which school 
they go to be about whether they are or are not dragging $7,500 
away from some other system with them, as compared to what is 
the right school for a young person, what is the right school 
for a 16-year-old who is reading at the fourth-grade level who 
dropped out of school last year.
    If Maya Angelou Evans campus makes sense, let's see if we 
can't get that young person to apply and get through the 
lottery. If it is too late for them to be at the SEED School, 
then let's be finding some middle school students or sixth- or 
seventh-graders that need to get into the SEED School and have 
them go there.
    So it is just a first attempt to try to break down some of 
these barriers that have been separating us and make everyone 
go focus on the young people and focus on the 16- and 17-year-
olds who are floating around east of the river, not in school, 
not engaged, get them back in school and then get them back 
reengaged.
    Senator Landrieu. Can I add something to that?
    Senator DeWine. Yes.
    Senator Landrieu. Mr. Domenici, on that point, there are a 
lot of 16- and 17-year-olds floating around in Louisiana and we 
have been capturing them in the right sense, in the best sense, 
or I should say giving them an alternative to floating around 
through an extraordinary program that this Congress funds, not 
an educational program in the traditional, but it is called 
Youth Challenge, with the National Guard.
    In all of our States--and I am particularly proud of this 
because Louisiana has won the award for the outstanding program 
in the Nation--we have three programs that have redirected 
1,000 16- and 17-year-olds floating around and gotten them into 
either college or full-time employment with extraordinary 
success. So the model that you are developing is working in 
many other places, and I want to commend you for it and 
encourage you.
    Perhaps, Mr. Chairman, you and I could introduce this young 
team to some of the National Guard leadership and they could 
maybe share some of their experiences. Again, children aren't 
forced. It is a model. They can leave any time they want. But 
you know what? They are not leaving, and these are kids who are 
smart enough to at least recognize a last chance when they see 
it and are grabbing that chance and doing what they need to do, 
even without parental support or even with parents who have 
tried everything and kind of given up.
    Sometimes, that happens, you know. In poor families, and 
also in wealthy families, parents throw up their hands. They 
have tried everything, but sometimes the kids are just going 
astray. But these children seem to find in this program 
something that they say, this is my last opportunity, and they 
are having tremendous success.
    So, hopefully, we can share that model, Mr. Chairman.
    Senator DeWine. Mr. Adler, who is doing something like what 
you are doing with the SEED School in other jurisdictions? What 
is comparable to what you are doing?
    Mr. Adler. We are the only public college prep urban 
boarding school anywhere in the country. There have been two 
other efforts at it. One was in New Jersey, one was in 
Massachusetts. They both closed. The economics of what we do 
are brutal; they are just brutal. There isn't another word for 
it. They couldn't make it economically.
    There have been three efforts, one of which has survived, 
and our goal is to now take this idea and do it again. We would 
like to do it again here. We would like to do it again across 
the country because there isn't anybody else doing it.
    Senator DeWine. Do it again, meaning what?
    Mr. Adler. Build more schools like this one.
    Senator DeWine. Replicate it.
    Mr. Adler. Replicate, so that we would produce this 
opportunity for more kids in the District and for kids in 
cities across the country.
    Senator DeWine. The reality is, as Senator Landrieu was 
saying, there is a funding limitation. I mean, any residential 
operation is going to cost so much money. That is just the way 
it is.
    Mr. Adler. First of all, that is absolutely right. And 
second of all, whether we pay for it in the form of residential 
education or for other kinds of really----
    Senator Landrieu. Or residence in prison. I mean, you can 
either pay for it up front, residential in school, or you can 
pay $50,000 a year for residence in prison. So I mean for the 
government, I know it is very expensive, but it is maybe a lot 
less expensive than 25 years in prison.
    Mr. Adler. First of all, I would agree with that. Secondly, 
I have to say that even in a net present value sense, we are 
going to have a 97 percent high school graduation rate for the 
kids who have attended the SEED School. We know that the net 
present cost to society of a drop-out from high school is about 
$500,000.
    By that calculation, the day 2 months from now when our 
kids graduate from the SEED School, we have returned money to 
the taxpayer. Yes, the taxpayer had to invest the money over 
the 6 years that the student was there.
    Senator DeWine. It is up-front money that is the problem.
    Mr. Adler. Right.
    Senator DeWine. I mean, that is the challenge, getting the 
money up front and convincing people that it should be done.
    Mr. Adler. That is exactly right.
    Mr. Domenici. Could I just address one thing on that which 
I should have included, so I apologize? It related to your 
question about costs, and it relates again, I think, to 
structural things that we can all be working on that probably 
are not quite on Eric's list.
    One of the things that we are all absorbing here, in 
addition to education costs, is in a certain sense we are 
absorbing willingly the cost of traditional social service 
delivery systems. We have been trying for a very long time to 
have someone tell us how much is the District spending on the 
average 15-year-old who has a certainly demographic, not even 
that they are incarcerated, just when you add in all the other 
inputs.
    In a certain sense, we are building those into our schools. 
Candidly, we are kind of just building them in to the extent we 
can afford them. If you can fully afford them, you do them all. 
If you can only afford one of them, you hire one social worker.
    But another piece of this both in this city and other 
cities is when you think about something that used to be called 
a school, how do you bring the right resources to bear on that 
space, and how do you bring the Department of Mental Health 
there; how do you bring the Department of Employment Services, 
if that is appropriate; how do you bring Youth Services; how do 
you bring the Department of Recreation there. Charters may be 
well-suited to do that.
    How do you bring family counseling there? Again, Kent Amos 
and the community academies are really doing a lot of work on 
this front. In one sense, yes, it makes our costs look 
ridiculous, but the truth is if you ask me one more time to 
peel this away and say how much are you paying for your 
teachers and your building from 9:00 to 3:00, well, my answer 
would not be radically different than a whole bunch of other 
schools, except we might have slightly different classes.
    So another piece of this puzzle is how do you get the 
agencies and the mayors' offices of cities and urban areas to 
say what do we need to bring to bear so that we can start 
another SEED school someplace and it won't have to go raise 
privately, and what do we need to bring to bear the moment Maya 
Angelou would try to do this again, which is not have to go for 
four mental health staff from the private sector or otherwise, 
as compared to saying from the beginning the Department of 
Mental Health is here making sure that we have full-time social 
workers on staff.
    Senator Landrieu. Well, I would say the question for the 
community is, having been shown success which you all are 
showing against the odds, extraordinary success, how do we as a 
community reward your success. How do we encourage you, as 
opposed to making your job harder?
    You have shown against the odds that it can be done, so the 
challenge to the mayor, to the school board, to the Congress 
and to the community generally is how do we reward your success 
so that we can scale it up and make it more commonplace than an 
exception to the rule. I think that is hopefully what this 
hearing is, in part, about.

                         CONCLUSION OF HEARING

    Senator DeWine. Well, we thank you very much. It has been 
very interesting and very enlightening, and we want to continue 
to work with you in the future. Thank you very much.
    Senator Landrieu. Thank you.
    [Whereupon, at 11:55 a.m., Tuesday, May 4, the hearing was 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
                                   - 

</pre></body></html>
